<html>
<title> - ADVANCING TECHNOLOGY FOR NUCLEAR FUEL RECYCLING: WHAT SHOULD OUR RESEARCH, DEVELOPMENT, AND DEMONSTRATION STRATEGY BE?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                 ADVANCING TECHNOLOGY FOR NUCLEAR FUEL
                  RECYCLING: WHAT SHOULD OUR RESEARCH,
                     DEVELOPMENT, AND DEMONSTRATION
                              STRATEGY BE?

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 17, 2009

                               __________

                           Serial No. 111-35

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
50-172                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY


                            C O N T E N T S

                             June 17, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........     6
    Written Statement............................................     6

Statement by Representative Vernon J. Ehlers, Acting Minority 
  Ranking Member, Committee on Science and Technology, U.S. House 
  of Representatives.............................................     7
    Written Statement............................................     8

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     9

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................     9

Prepared Statement by Representative Lincoln Davis, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10

                               Witnesses:

Dr. Mark T. Peters, Deputy Associate Laboratory Director, Argonne 
  National Laboratory
    Oral Statement...............................................    12
    Written Statement............................................    14
    Biography....................................................    18

Dr. Alan S. Hanson, Executive Vice President, Technology and Used 
  Fuel Management, AREVA NC Inc.
    Oral Statement...............................................    18
    Written Statement............................................    20
    Biography....................................................    26

Ms. Lisa M. Price, Senior Vice President, GE Hitachi Nuclear 
  Energy Americas LLC; Chief Executive Officer, Global Nuclear 
  Fuel, LLC
    Oral Statement...............................................    26
    Written Statement............................................    27
    Biography....................................................    34

Dr. Charles D. Ferguson, Philip D. Reed Senior Fellow for Science 
  and Technology, Council on Foreign Relations
    Oral Statement...............................................    34
    Written Statement............................................    36
    Biography....................................................    43

Discussion
  Discouraging Weapons Proliferation in Nuclear Processing.......    43
  Existing Versus Next Generation Technologies...................    44
  Time Frames for Storage and Recycling..........................    46
  The Merits of Different Reactor Types..........................    46
  Fuel Reprocessing Costs........................................    47
  More Proliferation Concerns....................................    48
  Financial Costs................................................    49
  High-temperature Gas-cooled Reactors...........................    50
  Costs of Nuclear Waste Management Today........................    52
  The Navajo Nation's Uranium Supply.............................    53
  GNEP and the Advanced Fuel Cycle Initiative....................    54
  Time Issues and MOX Fuel.......................................    55
  Clarification on Reprocessing, Recycling, and Fast Reactors....    56
  Nuclear Materials Transport....................................    58
  Safety Risks...................................................    59
  More on Fast Reactors..........................................    62
  Specific Research and Development Needs........................    63
  Economic Issues................................................    64
  The MOX Process and on More Fast Reactors......................    66
  Closing........................................................    68

              Appendix: Additional Material for the Record

Letter to Representative Dana Rohrabacher from Nikolay Ponomarev-
  Stepnoy, dated June 16, 2009...................................    70

Letter to Chairman Bart Gordon from Alan S. Hanson, dated June 
  17, 2009.......................................................    72


   ADVANCING TECHNOLOGY FOR NUCLEAR FUEL RECYCLING: WHAT SHOULD OUR 
          RESEARCH, DEVELOPMENT AND DEMONSTRATION STRATEGY BE?

                              ----------                              


                        WEDNESDAY, JUNE 17, 2009

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:06 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                 Advancing Technology for Nuclear Fuel

                  Recycling: What Should Our Research,

                     Development, and Demonstration

                              Strategy Be?

                        wednesday, june 17, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Wednesday, June 17, 2009 the House Committee on Science and 
Technology will hold a hearing entitled: ``Advancing Technology for 
Nuclear Fuel Recycling: What Should Our Research, Development, and 
Demonstration Strategy Be?''
    The Committee's hearing will explore the benefits and risks 
associated with nuclear waste recycling and the research development 
and demonstration needed to address the technical challenges and policy 
objectives of a nuclear waste management strategy that could include 
recycling spent nuclear fuel. If nuclear power is going to expand in 
this country the government needs to have a strategy to manage the 
growing volumes of spent nuclear fuel. The Committee will hear from 
expert witnesses who will discuss the issues relevant to deployment of 
advanced technologies for nuclear waste recycling.

Witnesses

        <bullet>  Dr. Mark Peters is the Deputy Associate Laboratory 
        Director at Argonne National Laboratory. Dr. Peters will 
        testify on the current research, development, and demonstration 
        programs at the Department of Energy to advance technologies 
        for recycling spent nuclear fuel. He will also discuss future 
        RD&D needs.

        <bullet>  Dr. Alan S. Hanson, Executive Vice President for 
        Technology and Used Fuel Management at Areva, Inc. Areva has 
        worldwide operations that encompass the entire nuclear power 
        cycle, including uranium exploration and mining, fuel 
        fabrication, design and construction of nuclear reactors, and 
        treatment and recycling of spent fuel. Dr. Hanson will provide 
        information regarding Areva's technology for reprocessing 
        nuclear waste and the company's technology development 
        underway.

        <bullet>  Ms. Lisa Price is the Senior Vice President, GE 
        Hitachi Nuclear Energy and Chief Executive Office of Global 
        Nuclear Fuel. GE Hitachi develops advanced light water nuclear 
        reactors and provides products and services for improving 
        output and efficiency of existing nuclear power plants. Ms. 
        Price will testify about General Electric's technology 
        development for recycling spent nuclear fuel and GE's work with 
        the Federal Government in this area.

        <bullet>  Dr. Charles D. Ferguson is a Philip D. Reed Senior 
        Fellow for Science and Technology at the Council on Foreign 
        Relations. The Council on Foreign Relations is an independent, 
        non-partisan organization established in 1921 to explore 
        foreign policy issues and promote an understanding of the U.S. 
        role in the world. Dr. Ferguson will provide testimony about 
        the various technology options available for management of 
        spent nuclear fuel and the benefits and risks associated with 
        those technologies.

Background

    According to the Nuclear Regulatory Commission (NRC), as of August 
2008 there are 104 commercial nuclear power reactors licensed to 
operate in thirty-one states providing approximately 20 percent of our 
nation's electricity supply. The approximate 58,000 metric tons of 
spent nuclear fuel already existing at these reactor sites continues to 
accumulate at a rate of 2,000 metric tons per year. In 1987, Congress 
designated Yucca Mountain in Nevada as the Nation's sole candidate site 
for a permanent high-level nuclear waste repository. The Department of 
Energy submitted a license application to the NRC for the proposed 
Yucca Mountain site in June 2008. The Nuclear Waste Policy Act of 1982 
targeted 1998 as the year to start loading waste into the repository. 
That date has been pushed back repeatedly.
    The Obama Administration is taking a very different approach to 
Yucca Mountain and nuclear waste management. President Obama is 
proposing to cut funding for the Yucca Mountain project by 
approximately $100 million and to convene a blue ribbon panel to look 
for alternative solutions for managing the Nation's nuclear waste. The 
President's 2010 budget request appears to continue the Yucca Mountain 
licensing process, but the significant funding cut certainly would 
delay the planned 2020 opening of the repository.

Alternatives to Yucca Mountain

    Current law provides no alternative repository site to Yucca 
Mountain, and it does not authorize DOE to open temporary storage 
facilities without a permanent repository in operation. In the past, 
there have been discussions about the Department of Energy taking title 
of the commercial spent nuclear fuel and paying for the cost of storing 
the waste at the private utility sites. In the early 1980s the NRC 
determined that waste can be safely stored at these reactor sites for 
at least thirty years after a reactor shuts down. More recently, the 
NRC is proposing a further revision to its Waste Confidence Decision to 
find reasonable assurance that spent fuel can be stored safely for at 
least sixty years after a reactor's licensed operating life. In 
addition, under current law a private storage facility could be 
licensed by the NRC. Such a facility has been licensed in Utah, but its 
operation has been blocked because it cannot obtain a permit from the 
Department of Interior's Bureau of Land Management.

Recycling Spent Nuclear Fuel

    With the Obama Administration poised to delay the Yucca Mountain 
project and initiate a major program review, recycling spent nuclear 
fuel is likely to be considered in part because there is another long-
term concern that uranium supplies for nuclear fuel may become scarce 
if it cannot be reused. Along with consideration of a recycling 
alternative for nuclear waste management, it is essential to examine 
the research, development and demonstration needed at the federal level 
to ensure that we understand the safety, environmental, security and 
economic issues associated with a decision to adopt a nuclear waste 
recycling program in this country.
    Since the 1970s, U.S. nuclear waste policy has been based on the 
``once through'' fuel cycle in which nuclear fuel is used once in a 
reactor and then permanently disposed of in long-term storage. The 
major alternative is the ``closed'' fuel cycle, in which spent nuclear 
fuel would be reprocessed into new fuel. The goal is to extract more 
energy from a given supply of uranium, reduce the amount of waste going 
to a permanent waste repository and do this in a manner that is 
proliferation-resistant.
    Fuel for U.S. nuclear reactors currently consists of uranium in 
which the fissile isotope U-235 has been enriched to three to five 
percent--the remainder being the non-fissile isotope U-238. During use 
in the reactor most of the U-235 splits, or fissions, releasing energy. 
Some of the U-238 is transmuted into fissile isotopes of plutonium, 
some of which also fissions. In reprocessing, the uranium and plutonium 
are chemically separated to be made into new fuel while the lighter 
elements resulting from the fission process are stored for disposal. 
There are a number of different fuel options for recycling nuclear 
waste. One process, used primarily in France, mixes plutonium with 
uranium to form fresh fuel known as MOX fuel which can be reused once 
in most existing light water reactors. For multiple recycling of spent 
fuel, advanced reactors would be necessary. These fast reactors could 
create new fuel from spent fuel repeatedly in a manner that would allow 
it to be fed back into the reactor until it is entirely fissioned. 
These fast reactors also would destroy the longest-lived radioactive 
components for the fuel, leaving only relatively short-lived 
radioactive isotopes which would decay to background levels within 
approximately 1,000 years. Ultimately, these short-lived isotopes would 
be sent to permanent storage.
    Depending on the exact technologies chosen to close the nuclear 
fuel cycle, there are a number of issues to consider. The National 
Academy of Sciences, the General Accountability Office, and the Council 
on Foreign Relations have raised questions about using an approach such 
as the process used to form MOX fuel. This involves separating a pure 
stream of plutonium from the spent fuel, prompting concerns about 
proliferation of weapons-grade materials. Although still debated, spent 
fuel recycling could save space in an underground repository by 
reducing the near-term heat load, which is the primary limit on 
repository capacity. However, the closed fuel cycle is generally 
considered to be substantially more expensive than the once-through 
cycle and there is a broad scientific consensus that long-term 
isolation of nuclear waste from the environment will still be required. 
There is also widespread agreement that a more robust long-term 
research and development program is needed to address these outstanding 
issues.
    Chairman Gordon. Good morning, and this hearing will come 
to order.
    I want to welcome everyone to today's hearing to explore 
the policy questions and the research, development, and 
demonstration needs associated with recycling of spent nuclear 
fuel. I would like to welcome our expert panelists who will 
discuss the ongoing R&D activities in the Federal Government, 
private sector and around the globe and help us to understand 
the safety, environmental, security and economic issues related 
to the adoption of a nuclear reprocessing strategy.
    I am supportive of nuclear power as I believe it is part of 
the solution to the daunting challenge of climate change and 
energy independence and I also recognize that our 104 operating 
reactors provide very reliable baseload power.
    To me, the best reason to consider reprocessing is that an 
expansion of nuclear power may make the once-through fuel cycle 
inadequate for maintaining our nuclear power supply as uranium 
sources eventually become scarce. There are near-term 
technologies available for reprocessing spent nuclear fuel that 
could be deployed in the United States relatively quickly, but 
there are some well-documented concerns raised about this 
strategy. I am also aware of ongoing research in more advanced 
technologies that could address nuclear fuel cycle issues that 
we face today, and while reprocessing of spent fuel allows us 
to extract more energy from a given supply of natural uranium, 
it raises concern about increased costs for waste management 
and proliferation of weapons-grade materials.
    I am hopeful that today's discussion will shed some light 
on the various benefits, challenges and risks that we must 
address before adopting a long-term nuclear recycling strategy.
    As I told our witnesses earlier, we have a variety of 
hearings going on simultaneously. The bells are ringing, we may 
have votes, and we want to have as much of the hearing as we 
can. If it gets to a point where there is going to be a long 
lapse, we will try to be respectful of your time. I know you 
have prepared statements, and as you go through that, as much 
as you can I would hope that you later in the questions and 
answers try to help me with what I think is sort of my 
threshold question, at least one of the threshold questions, 
and that is, do we move forward with existing technologies to 
reprocess or do we skip that and wait for the next generation 
to come along? So part of that is, do we have storage now to 
wait for that next generation? Is that next generation really, 
you know, feasible, and what are going to be the cost 
consequences of that? So if you can in your materials, you 
might try to work that in.
    Now I would like to recognize Dr. Ehlers for an opening 
statement.
    [The prepared statement of Chairman Gordon follows:]

               Prepared Statement of Chairman Bart Gordon

    Good morning and welcome to today's hearing to explore the policy 
questions and the research, development, and demonstration needs 
associated with recycling our spent nuclear fuel.
    I would like to welcome our expert panelists who will discuss the 
ongoing RD&D activities in the Federal Government, private sector and 
around the globe, and help us understand the safety, environmental, 
security and economic issues related to the adoption of a nuclear 
reprocessing strategy.
    I am supportive of nuclear power, as I believe it is part of the 
solution to the daunting challenge of climate change, and I also 
recognize that our 104 operating reactors provide very reliable 
baseload power.
    To me, the best reason to consider reprocessing is that an 
expansion of nuclear power may make the once-through fuel cycle 
inadequate for maintaining our nuclear power supply as uranium 
resources eventually become scarce.
    There are near-term technologies available for reprocessing spent 
nuclear fuel that could be deployed in the United States relatively 
quickly, but there are some well-documented concerns raised about this 
strategy. I am also aware of ongoing research in more advanced 
technologies that could address the nuclear fuel cycle issues we face 
today.
    While reprocessing of spent fuel allows us to extract more energy 
from the given supply of natural uranium, it raises concerns about 
increased costs for waste management and the proliferation of weapons-
grade materials.
    I am hopeful that today's discussion will shed some light on the 
various benefits, challenges, and risks that we must address before 
adopting a long-term nuclear recycling strategy.
    Again, I would like to thank the witnesses for their participation 
today and I look forward to your testimony. Thank you.

    Mr. Ehlers. Thank you, Mr. Chairman, for holding this 
hearing today on nuclear fuel recycling. I am sitting in for 
the real Ranking Member, Mr. Hall from Texas, who is 
temporarily detained on the Floor and I am sure he will return 
shortly and spice up the reading with his inimitable sense of 
humor.
    I am very pleased that you are holding this hearing, Mr. 
Chairman. I think it is a very important issue for this 
committee to be looking into as nuclear energy is a clean and 
reliable source of baseload power in the United States. Now, 
not everyone has agreed with that statement over the years, but 
back when nuclear power began to run into trouble in the United 
States with the environmentalists--and I am a staunch and 
always was a staunch environmentalist--I argued strenuously for 
nuclear power on the basis that it was the only method 
available then which would not contribute to greenhouse gases. 
Back in 1970, not too many people were worried about greenhouse 
gases. Today we worry a great deal about them.
    But we all know the basic facts. There are currently 104 
nuclear power plants in 31 States in the United States 
generating approximately 20 percent of the electricity 
produced. Nuclear plants in 2008 were at a capacity factor of 
91.5 percent compared to 73.6 percent for coal, 42 percent for 
natural gas and 40 percent for renewables, and I understand 
Michigan has four nuclear plants and another one under 
construction. They currently generate 26.2 percent of the 
state's electricity, one of the highest of any states, I 
believe.
    As the industry is facing resurgence and the interest to 
build new nuclear plants, the issue of nuclear waste is 
prevalent. That has always been one of the great deterrents to 
using nuclear energy. What is even more troubling is a decision 
by the Obama Administration to abandon a permanent repository 
at Yucca Mountain, Nevada, after over 20 years of research and 
billions of dollars of carefully planned and reviewed 
scientific fieldwork.
    So we are here to receive testimony from our four expert 
witnesses on the facts and on the pros and cons of reprocessing 
and recycling used nuclear fuel. I believe that finding some 
sort of solution to how to handle our used nuclear fuel is 
critical to the continued successful contribution of nuclear 
energy to our country's electric generation and I look forward 
to hearing from today's witnesses on this important and timely 
topic.
    I do regret, Mr. Chairman, that this committee has not had 
much to say about handling nuclear waste in the past. This in 
one of many issues which should be in our jurisdiction but has 
been in another committee. I think we may have written a better 
bill regarding Yucca Mountain, and I think the biggest problem 
is the way the bill was written. It was impossible to meet the 
requirements. No one could predict or prove that for 10,000 
years there would be no leakage, whereas if we had taken the 
road of monitored retrievable storage with the ability to 
repair any casks that might leak, we would have been much 
further along at much less cost. That may or may not have been 
the best solution but certainly should have been examined. I 
have mixed feelings about the reprocessing approach. The cost 
is, as we know, very high, and won't really solve the problem 
in any better way than other things that we could do. I am very 
eager to hear the comments from the experts this morning and to 
find out just what we can do in terms of dealing with nuclear 
waste, what is proper and what is best, what is most economical 
and what other approaches might be available and useful.
    With that, I yield back.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    Mr. Chairman, thank you for holding this hearing today on nuclear 
fuel recycling. I think this is a very important issue for this 
committee to be looking into as nuclear energy is a clean and reliable 
source of baseload power in the United States.
    We all know the basic facts. There are currently 104 nuclear power 
plants in 31 states operating in our country generating approximately 
20 percent of the electricity produced. Nuclear plants in 2008 ran at a 
capacity factor of 91.5 percent compared to 73.6 percent for coal, 42 
percent for natural gas and 40 percent for renewables. My home State of 
Michigan has four nuclear plants that generate 26.2 percent of the 
state's electricity.
    As the industry is facing resurgence in the interest to build new 
nuclear plants, the issue of nuclear waste is prevalent--even more so 
with the decision by the Obama Administration to abandon a permanent 
repository at Yucca Mountain, Nevada after over 20 years of research 
and billions of dollars of carefully planned and reviewed scientific 
field work. So we're here today to receive testimony from our four 
expert witnesses on the facts and on the pros and cons of reprocessing 
and recycling used nuclear fuel. I believe that finding some sort of a 
solution to how to handle our used nuclear fuel is critical to the 
continued successful contribution of nuclear energy to our country's 
electric generation and I look forward to hearing from today's 
witnesses on this important and timely topic.

    Chairman Gordon. Thank you, Dr. Ehlers. I will point out 
that I think that we are the only Committee on the House side 
and maybe the Senate too in the last several years that has had 
any type of hearings on nuclear energy. We are going to 
continue with that. We have had a variety as well as 
roundtables. I think that you are absolutely correct, that we 
need to play a strong role in making sure that decisions are 
made on a scientific basis and not just an emotional basis, and 
I think we can play a good role there. You will also be pleased 
to know that the Administration has not abandoned the Yucca 
Mountain site but rather put it on hold, continuing their--they 
are continuing with all the various paperwork moving forward. 
They are putting it on hold while they have a council group 
that is going to make recommendations on that in the future. So 
hopefully--and Secretary Chu and Speaker Pelosi both spoke 
before this committee saying that it was part of the overall 
solution.
    Now, if there are Members who wish to submit additional 
opening statements, your statements will be added to the 
record, and I think Mr. Rohrabacher would like to do that.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good Morning. Thank you, Mr. Chairman, for holding today's hearing 
to examine nuclear fuel recycling and to hear testimony on the research 
and development programs to address the challenges and opportunities of 
fuel recycling.
    In order to develop a sustainable energy policy we must consider 
all available sources of energy that will reduce our dependence on 
foreign oil, improve our greenhouse gas emissions, and satisfy our 
energy needs. Nuclear energy is an integral part of this new energy 
plan. However, questions remain about the safety and security of using 
nuclear energy.
    Currently, the U.S. uses nuclear energy to provide approximately 20 
percent of electricity. However, we do not reprocess the spent fuel 
from these reactors, which accumulates at a rate of 2,000 metric tons 
per year. Our current nuclear waste laws only allow for the disposal of 
waste at the Yucca Mountain site, but the proposed Fiscal Year 2010 
budget cut funding to Yucca Mountain by $100 million, further delaying 
the site's proposed 2020 opening. The time has come to consider new 
ways to dispose of and reprocess used nuclear fuels.
    Within my home State of Illinois, the only nuclear engineering 
department is at the University of Illinois. This is particularly 
alarming because our state has 11 operating nuclear power reactors, 
Argonne National Laboratory, and other nuclear facilities. Illinois 
residents have paid more than $2.4 billion on the federal Nuclear Waste 
Fund. My state has a large stake in nuclear power and technology and 
under-supported programs and initiatives that could improve upon our 
nuclear capabilities are quite troubling.
    I am interested to hear from our witnesses today how we can change 
and update our research and development program to ensure that we are 
using cutting-edge technology and providing appropriate levels of 
funding. In particular, I would like to know how we can ensure that our 
fuel reprocessing will not create a national security risk by isolating 
pure plutonium and how we can work through this committee and through 
Congress to ensure that these programs receive appropriate funding.
    I welcome our panel of witnesses, and I look forward to their 
testimony. Thank you again, Mr. Chairman.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Good morning, Mr. Chairman. I am happy to see that the Committee is 
studying the issue of nuclear fuel reprocessing.
    It is my belief that nuclear energy has an undeserved negative 
reputation.
    The fact is that nearly any energy generation method comes with 
risks for personal and environmental harms.
    Nuclear power has the capacity to generate a lot of electricity.
    France utilizes it almost exclusively. Twenty percent of our 
nation's power comes from nuclear.
    The House Committee on Science and Technology has held hearings in 
the past on this issue. The consensus from expert witnesses from the 
past has been that the storage of spent fuel is the most bedeviling 
issue.
    In the past, witnesses have added that reprocessing can be done, 
but current methods expend more energy to accomplish the reprocessing 
to really make it worth the effort.
    However, I am glad that this committee is willing to revisit the 
issue.
    As you all know, Texas is the Nation's largest energy-producing 
state.
    It is rich in natural resources such as natural gas, oil, wind, and 
solar.
    Nearly 40 percent of Texas' electricity output relies on coal, and 
nearly all of that comes from mines that are owned by the utilities 
they supply.
    The unfortunate news is that Texas ranks highest in the Nation in 
carbon dioxide emissions.
    Greater diversification of its energy source mix could help Texas 
do better, when it comes to greenhouse gas emissions.
    Texas ranks 7th among the 31 States with nuclear capacity. It is my 
understanding that nuclear energy produces relatively less pollutants 
per unit of energy generated.
    I have mixed feelings about the continuing delays in finding a 
repository for nuclear waste. The ``not in my backyard'' argument is 
strong, and I can understand that sentiment.
    Today's hearing will be helpful to understand whether technology 
developments have made it more feasible to move toward nuclear power.
    Although we as Members of Congress should not be in the business of 
picking winners and losers in the energy debate, I believe that it is 
important to study the issues and provide a broad base of federal 
support.
    I thank the witness for appearing today and for providing 
testimony.
    Thank you, Mr. Chairman and Ranking Member. I yield back the 
remainder of my time.

    [The prepared statement of Mr. Davis follows:]

           Prepared Statement of Representative Lincoln Davis

    Mr. Chairman and Ranking Member, I'd like to thank you both for 
holding today's hearing to discuss nuclear waste recycling, a nuclear 
waste management strategy that includes utilizing recycled spent 
nuclear fuel, and how this strategy could support our nation's goal of 
energy independence. My home State of Tennessee has long supported the 
technological expansion of America's energy portfolio. From rural 
electrification under the Tennessee Valley Authority to the great 
investments being made in solar energy today, Tennessee has contributed 
significantly to America's efforts. Biofuels, wind, coal, natural gas 
and other sources of energy will all have their part to play in 
America's future, and the search for cleaner, more efficient 
alternative fuels is an admirable goal that we should continue to 
support, but we simply cannot meet our needs or fulfill our obligations 
without making nuclear energy a part of the mission.
    Roughly thirty percent of the energy used to produce electricity in 
Tennessee comes from the six nuclear reactors in our area. This energy 
is and always has been emissions free, is delivered to rate payers at a 
fraction of the cost associated with coal, natural gas, or oil, and it 
has a far better safety record. We have a considerable stockpile of 
enriched, processed uranium that could and should go into commercial 
use by our energy sector, not to mention the amount of weapons-grade 
uranium that could be used as a nuclear power source. In this economy, 
with our energy independence at stake and a national commitment to 
cleaner, more efficient power on the line, we must make nuclear energy 
a part of our nation's future.
    The Babcock & Wilcox Company is currently working on a design for a 
new nuclear reactor that could be the practical, affordable, near-term 
answer we are looking for to meet our growing demand for clean, zero 
emissions, power generation. The Tennessee Valley Authority has shown 
interest in this project as an attractive energy solution for many 
nuclear operating companies.
    Putting to use recycled nuclear fuel, when it is appropriate to do 
so, could prove to be a major player in an energy strategy that 
incorporates nuclear as a source. In order to realize fully the long-
term benefits of nuclear energy, the United States and other nations 
need to develop these advanced fuel-cycle technologies. Additionally, 
we must remember that any decision to pursue advanced fuel cycles in 
the United States needs to consider economic and nonproliferation 
challenges associated with recycling uranium fuel.
    I want to thank the witnesses for coming today, and I look forward 
to hearing your testimonies and what you see as the benefits and risks 
associated with this technology.

    [The prepared statement of Mr. Mitchell follows:]

         Prepared Statement of Representative Harry E. Mitchell

    Thank you, Mr. Chairman.
    Nuclear power provides a significant portion of our nation's 
electricity supply. According to the Nuclear Regulatory Commission, 
there are commercial nuclear power reactors licensed to operate in 31 
states. These reactors provide approximately 20 percent of our nation's 
electricity supply.
    Nuclear power is a critical electricity source in Arizona where we 
have the largest nuclear generation facility in the Nation, the Palo 
Verde Nuclear Generating Station.
    However, as these nuclear power reactors continue to operate, spent 
nuclear fuel continues to accumulate without a clear strategy of how to 
store this waste.
    Today we will explore the benefits and risks of nuclear waste 
recycling. We will also discuss the research development and 
demonstration needed to address the technical challenges and policy 
objectives of recycling spent nuclear fuel.
    I look forward to hearing more from our witnesses on what advanced 
technologies may be developed to make nuclear waste recycling possible.
    I yield back.

    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
first of all, let me commend you for this hearing and your 
fairness. If there is a--I have a letter that I have received 
from Nikolay Ponomarev-Stepnoy, who is a senior member, a Vice 
President of the Kurchatov Institute in Moscow, and he is a 
highly respected Russian physicist, and I would like if 
possible to submit this letter from him to the record but read 
a small portion of it as we begin.
    Chairman Gordon. You know, it might be best to wait. Let us 
make--we will make the letter a part of the record if there is 
no objection, and with your opening statement----
    Mr. Rohrabacher. Opening statement or----
    Chairman Gordon. Or when your question time--I think that 
might be a better----
    Mr. Rohrabacher. Yes, sir.
    Chairman Gordon. If that is okay?
    Mr. Rohrabacher. That is a good idea.
    Chairman Gordon. Thank you. Any other Members now or that 
aren't present here will have two weeks to submit an opening 
statement.
    At this time I would like to introduce our panel of expert 
witnesses. Dr. Alan Hanson is the Executive Vice President for 
Technology and Used Fuel Management at Areva International, or 
Incorporated, rather. Ms. Lisa Price is the Senior Vice 
President of GE Hitachi Nuclear Energy and Chief Executive 
Officer of Global Nuclear Fuel. And Dr. Charles Ferguson is the 
Philip D. Reed Senior Fellow for Science and Technology at the 
Council for Foreign Relations. And I now yield to my colleague 
from Illinois, Ms. Biggert, to introduce a witness from her 
home state.
    Ms. Biggert. Thank you, Chairman Gordon. I would like to 
welcome Dr. Mark Peters from Argonne National Laboratory as one 
of today's witnesses. I am very pleased that he could be here 
to enlighten the Committee on the important work done in my 
District on reprocessing research. Dr. Peters is currently the 
Deputy Associate Lab Director for the Energy Sciences and 
Engineering Directorate. He juggles the responsibility for 
management and integration of the lab's energy research and 
development portfolio and also provides technical support to 
the DOE's Advanced Fuel Cycle Initiative where he was recently 
appointed AFCI National Campaign Director for spent fuel 
disposition.
    As most of you can see from his bio, Dr. Peters has 
extensive nuclear research and repository experience as a 
former Yucca Mountain project science and engineering manager 
at Los Alamos and at the DOE Office of Civilian Radioactive 
Waste, so I have had the pleasure of working with Dr. Peters 
over the years and know that his perspective will be very 
informative. So I look forward, Dr. Peters, to your testimony 
and appreciate you being here today. I yield back.
    Chairman Gordon. Thank you, and Ms. Biggert, you will be 
glad to know that Chuck Atkins, our Chief of Staff, was there 
Monday, went through, had a tour of Argonne and was very 
impressed with the operation there.
    The witnesses will have five minutes for your spoken 
testimony. Your written testimony will be included in the 
record for the hearing. When you have completed your spoken 
testimony, we will begin with questions. Each Member will then 
have five minutes, and we will begin with Dr. Mark Peters. Dr. 
Peters, you may begin.

 STATEMENT OF DR. MARK T. PETERS, DEPUTY ASSOCIATE LABORATORY 
             DIRECTOR, ARGONNE NATIONAL LABORATORY

    Dr. Peters. Chairman Gordon, Dr. Ehlers, Mrs. Biggert and 
Members of the Committee, thank you for the opportunity to 
testify before you on advanced technology for nuclear fuel 
recycling. My name is Mark Peters and I am the Deputy Associate 
Lab Director for Energy Sciences and Engineering at the Argonne 
National Laboratory. Mr. Chairman, I ask that my full written 
testimony be entered into the record and I will summarize it 
here.
    So I want to talk about--summarize my testimony going over 
three general areas. First, provide an introduction and some 
context and then a bit about spent nuclear fuel management and 
the fuel cycle, and then finally talk about the advanced 
nuclear fuel cycle research and development program and needs 
going forward.
    So by way of introduction, world energy demand is 
increasing at a rapid pace. In order to satisfy the demand to 
protect the environment for future generations including 
reduction of greenhouse gas emissions, future energy sources 
must evolve from the current dominance of fossil fuels to a 
more balanced, sustainable approach to energy production that 
is based on abundant, clean and economical energy sources. 
Nuclear energy is already a reliable, abundant and carbon-free 
source of electricity in the United States and the world. In 
addition to contributing to future electricity production, it 
could also be a critical resource for fueling the 
transportation sector. However, nuclear energy must experience 
significant growth to achieve the goals of reliable, affordable 
energy in a carbon-constrained world.
    There are a number of challenges associated with the global 
expansion of nuclear power. Any advanced nuclear fuel cycle 
aimed at meeting these challenges must simultaneously address 
issues of economics, uranium resource utilization, nuclear 
waste minimization and a strengthened nonproliferation regime, 
all of which require systems analysis and investment in new 
technologies.
    In the end, the comprehensive and long-term vision for 
expanded sustainable nuclear energy must include safe and 
secure fuel cycle technologies, cost-effective technologies for 
the overall fuel cycle system, and ultimately a closed fuel 
cycle for waste and resources management. Related to spent 
nuclear fuel management, the nuclear fuel cycle is a cradle-to-
grave framework that includes uranium mining, fuel fabrication, 
energy production and nuclear waste management.
    There are two basic nuclear fuel cycle approaches. An open 
or once-through fuel cycle as currently planned by the United 
States involves treating spent nuclear fuel as waste with 
ultimate disposition of material in a geologic repository. In 
contrast, a closed or recycle fuel cycle, as currently planned 
by other countries, for example, France, Russia and Japan, 
involves treating spent nuclear fuel as a resource whereby 
separations and actinide recycling and reactors work with 
geologic disposal.
    For reprocessing to be beneficial as opposed to 
counterproductive, it must be followed by recycling, 
transmutation and fission destruction of the ultra-long-lived 
radiotoxic constituents. Reprocessing by the so-called PUREX 
method, which is plutonium and uranium covered by extraction 
followed by plutonium recycling using mixed oxide fuel in light 
water reactors, is a well-established technology but is only a 
partial solution.
    It is not at all clear that we should embark on this path, 
especially since the United States has not made a massive 
investment in a PUREX/MOX infrastructure, although the United 
States is proceeding with a plan to reduce its excess weapons 
plutonium inventory using MOX in LWRs. In contrast, advancement 
of fast reactor technology for transuranic recycling 
consumption would maximize the benefits of waste management and 
also allow essential progress toward the longer-term goal of 
sustainable use of uranium and subsequently thorium with fast 
reactors.
    There is no urgent need to deploy recycling today, but as 
nuclear expands, a once-through fuel cycle will not be 
sustainable. To maximize the benefits of nuclear energy in an 
expanded nuclear energy future, it will ultimately be necessary 
to close the fuel cycle. Fortuitously, it is conceivable that 
the decades-long hiatus in the United States investment 
circumvents the need to rely on a dated recycling 
infrastructure. Rather, we have the option to develop and build 
new technologies and develop business models using advanced 
systems.
    Related to the R&D program, to reduce cost, ensure 
sustainability and improve efficiency, safety and security, 
significant investments on the order of several hundred million 
dollars per year in a sustained nuclear energy R&D program are 
needed. Such a program must effectively support and integrate 
both basic and applied research and use modeling and simulation 
capabilities to address both near-long evolutionary activities, 
such as life extensions of the current nuclear fleet, and long-
term solutions, for example, advanced reactors and fuel cycle 
technologies and facilities.
    As the nuclear industry pursues evolutionary R&D to further 
improve efficiencies along each step of the current fuel cycle, 
it is incumbent upon the government to implement long-term, 
science-based R&D programs for developing transformational 
technologies and options for the advanced fuel cycle. In the 
very near-term we recommend that the United States' advanced 
fuel cycle program develop a science and technology roadmap. 
This would involve national labs, universities and industry and 
be a--start with a comprehensive set of options for fuel cycle 
technologies and overall systems. The roadmap should describe 
the technical readiness, risks and potential benefits of each 
option and the required R&D for each. This would be followed by 
implementation of a robust science-based R&D program to address 
all the challenges related to the fuel cycle.
    Finally, there is sufficient time to analyze the technology 
options, choose the paths to investigate and conduct the 
science-based R&D and technology demonstrations that would be 
needed in the future for making decisions about the nuclear 
fuel cycle in the United States. However, it is imperative to 
begin now to build the R&D infrastructure that is needed for 
science and technology development, which must include advances 
in theory, modeling and simulation, new separation, fuel and 
waste management technologies, and advanced reactor concepts.
    With that, I thank you and would be pleased to answer any 
questions.
    [The prepared statement of Dr. Peters follows:]

                  Prepared Statement of Mark T. Peters

Introduction and Context

    World energy demand is increasing at a rapid pace. In order to 
satisfy the demand and protect the environment for future generations, 
including reduction of greenhouse gas emissions, future energy sources 
must evolve from the current dominance of fossil fuels to a more 
balanced, sustainable approach to energy production that is based on 
abundant, clean, and economical energy sources. Therefore, there is a 
vital and urgent need to establish safe, clean, and secure energy 
sources for the future on a worldwide basis. Nuclear energy is already 
a reliable, abundant, and ``carbon-free'' source of electricity for the 
United States and the world. In addition to contributing to future 
electricity production, nuclear energy could also be a critical 
resource for ``fueling'' the transportation sector (e.g., electricity 
for plug-in hybrid and electric vehicles and process heat for hydrogen 
and synthetic fuels production) and for desalinating water. However, 
nuclear energy must experience significant growth to achieve the goals 
of reliable and affordable energy in a carbon-constrained world.
    There are a number of challenges associated with the global 
expansion of nuclear power. Such a global expansion will create 
potential competition for uranium resources for fuel, the need for 
increased industrial capacity for construction, the need for integrated 
waste management, and the need to control proliferation risks 
associated with the expansion of sensitive nuclear technologies. 
Moreover, domestic expansion of nuclear energy will increase the need 
for effective nuclear waste management in the United States.
    Any advanced nuclear fuel cycle aimed at meeting these challenges 
must simultaneously address issues of economics, uranium resource 
utilization, nuclear waste minimization, and a strengthened 
nonproliferation regime, all of which require systems analysis and 
investment in new technologies. In the end, a comprehensive and long-
term vision for expanded, sustainable nuclear energy must include:

        <bullet>  Safe and secure fuel-cycle technologies;

        <bullet>  Cost-effective technologies for an overall fuel-cycle 
        system; and

        <bullet>  Closed fuel cycle for waste and resource management.

Spent Nuclear Fuel Management

    The nuclear fuel cycle is a cradle-to-grave framework that includes 
uranium mining, fuel fabrication, energy production, and nuclear waste 
management. There are two basic nuclear fuel-cycle approaches. An open 
(or once-through) fuel cycle, as currently planned by the United 
States, involves treating spent nuclear fuel as waste, with ultimate 
disposition of the material in a geologic repository (see Figure 1). In 
contrast, a closed (or recycle) fuel cycle, as currently planned by 
other countries (e.g., France, Russia, and Japan), involves treating 
spent nuclear fuel as a resource whereby separations and actinide 
recycling in reactors work with geologic disposal (see Figure 2).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    One of the key challenges associated with the choice of either 
option is spent nuclear fuel management. For example, current United 
States policy calls for the development of a geologic repository for 
the direct disposal of spent nuclear fuel. The decision to take this 
path was made decades ago, when the initial growth in nuclear energy 
had stopped, and the expectation was that the existing nuclear power 
plants would operate until reaching the end of their design lifetime, 
at which point, all of the plants would be decommissioned and no new 
reactors would be built. While it may be argued that direct disposal is 
adequate for such a scenario, the recent domestic and international 
proposals for significant nuclear energy expansion call for a 
reevaluation of this option for future spent fuel management (see 
Figure 3). While geologic repositories will be needed for any type of 
nuclear fuel cycle, the use of a repository would be quite different 
for closed fuel-cycle scenarios.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    For reprocessing to be beneficial (as opposed to 
counterproductive), it must be followed by recycling, transmutation, 
and fission destruction of the ultra-long-lived radiotoxic constituents 
(for example, plutonium [Pu], neptunium [Np], americium [Am]; the Pu-
241 to Am-241 to Np-237 chain is the dominant one). Reprocessing (with 
Plutonium and Uranium Recovery by Extraction [PUREX]) followed by Pu 
mono-recycling (mixedoxide [MOX] fuel in light water reactors [LWRs]) 
is well established, but is only a partial solution. It is not at all 
clear that we should embark on this path, especially since the United 
States has not made a massive investment in a PUREX/MOX infrastructure. 
(Although, the United States is proceeding with a plan to reduce 
excess-weapons Pu inventory using MOX in LWRs.) In contrast, 
advancement of fast reactor technology for transuranic [TRU] recycling 
and consumption would maximize the benefits of waste management and 
also allow essential progress toward the longer-term goal of 
sustainable use of uranium (and subsequently thorium) with fast 
reactors.
    There is no urgent need to deploy recycling today, but as nuclear 
energy expands, a once-through fuel cycle will not be sustainable. To 
maximize the benefits of nuclear energy in an expanding nuclear energy 
future, it will ultimately be necessary to close the fuel cycle. 
Fortuitously, it is conceivable that the decades-long hiatus in United 
States investment circumvents the need to rely on a dated recycling 
infrastructure. Rather, we have the option to develop and build new 
technologies and develop business models using advanced systems.

Advanced Fuel-Cycle R&D Program

    To reduce cost, ensure sustainability, and improve efficiency, 
safety, and security, significant investments (several hundred million 
dollars per year) in a sustained nuclear energy research and 
development (R&D) program are needed. Such a program must effectively 
support and integrate both basic and applied research and use modeling 
and simulation capabilities to address both near-term evolutionary 
activities (e.g., life extensions of the current nuclear fleet) and 
long-term solutions (e.g., advanced reactors and fuel-cycle 
technologies and facilities). As the nuclear industry pursues 
evolutionary R&D to further improve efficiencies along each step of the 
current fuel cycle, it is incumbent upon the government to implement 
long-term, science-based R&D programs for developing transformational 
technologies and options for advanced nuclear fuel cycles. Including 
nuclear regulators in the research and evaluation of results will 
facilitate the licensing and regulation of future nuclear facilities 
and technologies.
    The growth of the scientific basis for nuclear energy and its 
translation into design concepts and technology advances will enable 
expanded, sustainable use of nuclear energy to meet energy needs 
worldwide in a safe, secure, and cost-effective manner through:

        <bullet>  Discovery and understanding of relevant phenomena;

        <bullet>  Creation of innovative concepts;

        <bullet>  Science-based approaches involving theory, 
        experimentation, and modeling and simulation followed by 
        demonstrations of new technologies; and

        <bullet>  Optimization of future nuclear energy systems in the 
        context of technological, environmental, nonproliferation, 
        security, and socioeconomic factors.

    Planning the R&D required to support future implementation requires 
consideration of not only domestic nuclear energy development needs, 
but also an understanding of the global context in which nuclear energy 
will continue to grow. This requires a forward-looking program to 
conduct R&D defined by consideration of a broad range of planning 
assumptions for future nuclear energy use and effective approaches for 
improving waste management, nuclear nonproliferation, resource 
utilization, and economics. In summary, an advanced fuel-cycle R&D 
program, including fundamental R&D and technology development, is 
needed to examine a range of possibilities to determine the most 
important aspects, identify what the risks may be, and define what 
steps may be needed to successfully leapfrog existing technologies.
    An essential part of the overall program supporting nuclear energy 
is the fundamental R&D that addresses long-range development issues. 
These include:

        <bullet>  Timelines for potential nuclear energy deployment 
        strategies to identify possible nuclear energy infrastructures, 
        both global and domestic, and the science and technology 
        development needs and timing of availability;

        <bullet>  Understanding the current technical status (including 
        industry, the national laboratory complex, and universities) 
        and planning for a reasoned development;

        <bullet>  Fundamental development of key technologies to 
        resolve existing or anticipated issues related to waste 
        management, nonproliferation, resource utilization, and 
        economics; and

        <bullet>  Identify the need for research and development 
        facilities, including utilization of existing infrastructure, 
        for development and testing of the key technologies, including 
        determining the deployment times for these facilities.

    In the very near-term, we recommend that the United States advanced 
fuel-cycle program develop a Science and Technology Development 
Roadmap. Based on a comprehensive set of options for fuel-cycle 
technologies and overall systems, the roadmap should describe the 
technical readiness, risks, and potential benefits of each option and 
the required R&D plan for each. This should be followed by 
implementation of a robust, science-based R&D program involving 
advanced reactors, separations, transmutation fuel, and waste 
management to enable timely identification of the technology options 
for a sustainable closed fuel cycle, identify what the risks may be, 
and define what steps are needed to successfully leapfrog existing 
recycling technologies.
    In the long-term, the required basic and applied R&D includes:

        <bullet>  Science and discovery contributions to technology/
        design;

        <bullet>  Increased role of modeling and simulation in nuclear 
        energy R&D and design of nuclear energy systems;

        <bullet>  Improved systems analysis of nuclear energy 
        deployment strategies;

        <bullet>  Advances in separations and fuel technologies to 
        close the fuel cycle, e.g.,

                --  Develop and demonstrate aqueous-based technologies;

                --  Develop and demonstrate pyroprocessing 
                technologies; and

                --  Develop and demonstrate transmutation fuels.

        <bullet>  Advances in nuclear reactor technology and design to 
        generate electricity and close the fuel cycle, e.g.,

                --  Develop advanced reactor concepts;

                --  Develop advanced reactor component testing 
                facilities; and

                --  Develop a demonstration fast reactor.

        <bullet>  Advancement of safe and secure use of nuclear energy 
        on an international basis, e.g.,

                --  Enhance safety assurance capabilities in countries 
                newly adopting nuclear power; and

                --  Improve safeguard technologies and practices.

        <bullet>  Education and training of future nuclear energy 
        professionals; and

        <bullet>  University programs and partnering with institutions 
        that have nuclear energy programs.

    Finally, there is sufficient time to analyze the technology 
options, choose the paths to investigate, and conduct the science-based 
R&D and technology demonstrations that would be needed in the future 
for making decisions about the nuclear fuel-cycle infrastructure in the 
United States. However, it is imperative to begin now to build the R&D 
infrastructure that is needed for science and technology development, 
which must include advances in theory; modeling and simulation; new 
separations, fuel, and waste management technologies; and advanced 
reactor concepts.

                      Biography for Mark T. Peters

    Dr. Mark Peters is the Deputy Associate Laboratory Director for the 
Energy Sciences and Engineering Directorate at Argonne National 
Laboratory (ANL). Responsibilities of his position include the 
management and integration of the Laboratory's energy R&D portfolio 
coupled with development of new program opportunities at the 
Laboratory, and management of the energy-related Laboratory Directed 
Research and Development program (LDRD). Dr. Peters also provides 
technical support to the DOE Advanced Fuel Cycle Initiative (AFCI) and 
was recently appointed AFCI National Campaign Director for Spent Fuel 
Disposition.
    Selected to serve on a two-year detail to DOE Headquarters in 
Washington, D.C., Dr. Peters worked as a senior technical advisor to 
the Director of the Office of Civilian Radioactive Waste Management. In 
a prior position, Dr. Peters was with Los Alamos National Laboratory, 
where he served as the Yucca Mountain Project (YMP) Science and 
Engineering Testing Project Manager. In that role, he was responsible 
for the technical management and integration of science and engineering 
testing in the laboratory and field on the YMP.
    Before joining Los Alamos National Laboratory and the YMP in 1995, 
Dr. Peters had a research fellowship in geochemistry at the California 
Institute of Technology where his research focused on trace-element 
geochemistry. He has authored over 60 scientific publications, and has 
presented his findings at national and international meetings. Dr. 
Peters is a member of several professional organizations including the 
Geological Society of America, where he served as a member of the 
Committee on Geology and Public Policy. In addition, he is a member of 
the American Geophysical Union, the Geochemical Society, the 
Mineralogical Society of America, and the American Nuclear Society. Dr. 
Peters' professional achievements have resulted in his election to 
Sigma Xi, the Scientific Research Society, as well as Sigma Gamma 
Epsilon, the Earth Sciences Honorary Society.
    Dr. Peters received his Ph.D. in Geophysical Sciences from the 
University of Chicago and his B.S. in Geology from Auburn University.

    Chairman Gordon. Thank you, Dr. Peters.
    Dr. Hanson, you are recognized.

  STATEMENT OF DR. ALAN S. HANSON, EXECUTIVE VICE PRESIDENT, 
       TECHNOLOGY AND USED FUEL MANAGEMENT, AREVA NC INC.

    Dr. Hanson. Thank you, Mr. Chairman and Members of the 
Committee. My name is Alan Hanson. I am an Executive Vice 
President at Areva. On behalf of Areva's 6,000 U.S. employees, 
I appreciate this opportunity to testify before you today. 
Relevant to today's testimony is the fact that Areva operates 
the largest and most successful recycling facilities in the 
world. I am going to focus first on some of the benefits and 
criticisms associated with recycling.
    The main benefits I think are reasonably well known. There 
is a conservation of uranium resources that occurs because of 
the recovery of material and its reuse. Recycling makes waste 
management easier by reducing the volumes, the heat loads and 
changing the waste form which is to be disposed of, and 
importantly, recycling is a path to burning plutonium and 
removing it from proliferation concern. Recycling as we perform 
it today destroys about 30 percent of the plutonium and it 
alters the composition of the uranium and plutonium so that it 
is no longer very attractive for weapons purposes.
    Now, in contrast to these benefits, the criticisms are in 
three areas, first, nonproliferation, then cost, then the 
volume of waste. I want to focus on this nonproliferation issue 
because this is the reason we are not doing reprocessing in the 
United States today. In recent years many countries have 
embarked on a nuclear weapons program for reasons of national 
prestige and power but they have not done it using the 
commercial fuel cycle. They have done it in a dedicated 
program. The vast majority of countries seek only peaceful uses 
of nuclear power and they rely upon the industry to provide 
them with enriched material and recycling services rather than 
build their own facilities. This is one way to control the 
spread of the nuclear facilities, by having a robust industry 
providing services. A fundamental question is, would a decision 
by the United States to recycle and close the fuel cycle, would 
this contribute to proliferation or would it do the opposite 
and contribute to nonproliferation? I have a strong belief that 
it would do the latter, that it would contribute to 
nonproliferation.
    Let us examine the case for proliferation, and I will start 
with diversion. The United States has for a long time had a 
plutonium economy in the military complex. They have 
demonstrated a wonderful ability to control the material and to 
keep it from diversion. There is no reason in my mind that the 
same techniques that are used for our weapons program cannot be 
used for commercial recycling to make sure that there is not a 
diversion. What about theft? The same argument holds true. We 
have not had thefts of sensitive nuclear material in the United 
States. It is very well protected, and I don't see any reason 
again that we can't protect commercial material in the same 
way. This leaves only one reason to forego recycling, and that 
is the issue of setting an example for the rest of the world. 
This is the ostensible reason that we are not recycling. But 
that policy has not stopped France, the U.K., Russia and Japan 
from doing recycling and it will not stop China and India from 
doing it. Those are the next two nations which are going to 
embark on recycling programs. I would strongly recommend, as an 
individual and as a representative of Areva, that the United 
States step to the forefront and build a recycling complex 
which can provide a service to other countries to make it 
unnecessary and uneconomical for them to pursue their own 
recycling, and this would be a step forward on 
nonproliferation.
    I am not going to spend a lot of time on cost. This can be 
an expensive proposition. It can be done in an economical 
fashion as we are doing in Europe. The cost of the fuel cycle 
for nuclear power is such a small fraction of the total cost of 
electricity produced that if we were to double the costs of 
handling the back end of the fuel cycle, the consumer would see 
a few pennies a month, so it is not economically unattractive.
    On waste, the volume reduction is enormous. It is at least 
a factor of four for the repository for the high-level 
materials. You do end up with a little bit more of the low-
level materials which need to go into surface burial, but our 
calculations show that this would increase low-level waste only 
by about two and a half percent, which is certainly not an 
onerous price to pay.
    With regard to R&D, we are very supportive of R&D in the 
federal complex. There are things that industry will not do 
because they are too long-term or too speculative. We are very 
supportive of the AFCI initiative which Mark Peters referred 
to. We believe this should go forward, that work should 
continue to be done on advanced aqueous separations and also on 
electro-metallurgical separations, which are not as advanced as 
aqueous processing, and I think that Lisa Price will have more 
to say about that. We should not be seeking a proliferation-
proof fuel cycle. It doesn't exist. We can't find it. We can 
make it proliferation resistant and that is what we need to do.
    I would end my testimony here by trying to answer very 
quickly your question. I would personally vote for proceeding 
in a rather determined and in a near-term basis to implement 
recycling in the United States. I think waiting for Generation 
IV technologies would be another mistake for this country. 
Thank you very much.
    [The prepared statement of Dr. Hanson follows:]

                  Prepared Statement of Alan S. Hanson

Mr. Chairman and Members of the Committee:

    My name is Alan Hanson, and I am Executive Vice President, 
Technology and Used Fuel Management, of AREVA NC Inc.
    I appreciate this opportunity to testify before you today on 
advanced technology for nuclear fuel recycling.
    AREVA Inc. is an American corporation headquartered in Maryland 
with more than 6,000 employees in over 40 locations across 20 U.S. 
states. Last year, our U.S. operations generated revenues of $2.5 
billion--12 percent of which was derived from U.S. exports. We are part 
of a global family of AREVA companies with 75,000 employees worldwide 
offering proven energy solutions for emissions-free power generation 
and electricity transmission and distribution. We are proud to be the 
leading supplier of products and services to the worldwide nuclear 
industry, and we are the only company in the world to operate in all 
aspects of the nuclear fuel cycle.
    AREVA designs, engineers and builds the newest generation of 
commercial nuclear plants and provides reactor services, replacement 
components and fuel to the world's nuclear utilities. We offer our 
expertise to help meet America's environmental management needs and 
have been a longtime partner with the U.S. Department of Energy on 
numerous important projects. Relevant to today's testimony is the fact 
that AREVA operates the largest and most successful used fuel treatment 
and recycling plants in the world.
    As I read the Committee invitation, you have requested information 
in five subject areas:

        (1)  Explore the risks and benefits associated with the 
        recycling of used nuclear fuel;

        (2)  Discuss the research, development and demonstration needs 
        at the federal level as the U.S. reviews its nuclear waste 
        management strategy;

        (3)  Describe AREVA's strategy for management of used nuclear 
        fuel, including the technologies deployed for establishing a 
        closed fuel cycle;

        (4)  Discuss the environmental impacts of recycling and the 
        safety measures AREVA has adopted to address concerns about 
        nuclear proliferation; and

        (5)  Recommend any research, development and demonstration 
        needs that could make nuclear waste recycling safer, more 
        efficient and/or cost effective.

    What I hope to accomplish today is to address each of these 
requests in the testimony that follows.

Benefits and Criticisms Associated With Recycling

    The main benefits associated with the recycling of used nuclear 
fuel can be summarized as follows:

        <bullet>  Recycling makes waste management easier.

        <bullet>  Recycling provides strategic flexibility and 
        confidence for the long-term.

        <bullet>  Recycling saves natural resources.

        <bullet>  Recycling is a path to burning plutonium, thereby 
        reducing proliferation concerns.

    Recycling makes waste management easier. Recycling used nuclear 
fuel reduces the volume of high-level waste to be disposed of in a 
final repository.
    Only four percent of used fuel content is high-level waste. When 
such waste is vitrified, or specially-packed into a highly compact 
glass-like waste form for final storage, and added to the volume of 
compacted structural waste and high-level process waste, the total 
volume necessary for final disposal is 75 percent less than the volume 
required if the used fuel is disposed directly in a repository.
    The volume required in the repository is further reduced if the 
vitrified waste is allowed to ``cool'' in interim storage for some 
decades before actual emplacement in a repository. This is due to the 
thermal load issue. For example, if vitrified waste is stored for 70 
years of cooling before emplacement, the volume reduction factor would 
double. And volume requirements could be even further reduced when 
future technologies such as transmutation are available for deployment.
    High-level waste volume reduction is a crucial benefit of recycling 
as it allows maximum use of a geological repository, a rare and 
precious asset. When a high-level waste repository eventually opens in 
the U.S., one would want to make optimal use of every cubic unit of 
emplacement. Licensing of such a facility is long, and public 
acceptance is very sensitive. It is difficult to envisage today an 
attempt to license multiple geological repositories in the U.S. It is 
already difficult enough just to license the first one.
    It is worth noticing that today the quantity of used fuel already 
discharged from U.S. reactors is very significant, approximately 60,000 
metric tons. If Yucca Mountain were to open in the next decade, the 
amount of fuel available for emplacement would already completely fill 
the repository's legal capacity, leaving no place to dispose newly-
generated waste. Furthermore, about 2,000 metric tons of used fuel is 
discharged every year by the U.S. commercial nuclear reactor fleet of 
104 reactors. Even if no more reactors were to be built in the U.S., an 
additional 20,000 metric tons of used fuel would accumulate every 
decade the U.S. waits.
    The main contributor to the long-term radioactive toxicity of used 
nuclear fuel is plutonium for the first several hundreds of thousands 
of years, then minor actinides and uranium become predominant. 
Consequently, extracting plutonium and uranium from the waste for final 
disposal significantly reduces the waste's toxicity, by a factor of 
about 90 percent.
    Recycling provides a highly safe, resistant and well-characterized 
waste form. Vitrified waste is a very robust matrix against dissolution 
by water, as strong as volcanic rock. It has been proven scientifically 
that after 100,000 years only one percent of its mass would be lost by 
leaching in water, and it would require more than 10 million years to 
completely dissolve in water. It is important to recognize that after 
10,000 years, the radioactivity of a vitrified waste package is reduced 
down to that of natural uranium ore due to the natural decay of the 
radioactive atoms contained therein. Such robust characteristics of the 
waste form facilitate the long-term safety demonstration of the 
repository and consequently simplify the licensing process.
    Recycling provides strategic flexibility and confidence for the 
long-term. Vitrified waste packages are no longer subject to 
International Atomic Energy Agency safeguards, as almost all of the 
fissile material, uranium and plutonium, has been removed to 
manufacture recycled fuel. Consequently waste from recycling can be 
safely and cost-effectively interim-stored in simple, compact and low-
cost facilities.
    Recycling provides a credible and reliable nuclear waste management 
option consisting of storing the vitrified waste for an extended period 
of time waiting for a geological repository to be ready and approved. 
Long-term interim storage of waste from recycling is easier and safer 
than interim storage of used fuel without recycling. Vitrified waste 
from 40 years of operation of the French nuclear reactor fleet, 
currently 54 power reactors, resides in a single building with a 
footprint that is less than two American football fields.
    Recycling saves natural resources. Uranium recovered from 
recycling, also known as ``RepU,'' represents about 95 percent of the 
mass of light water reactor used fuel with a residual U<SUP>235</SUP> 
enrichment level of 0.8 percent to 0.9 percent, higher than natural 
uranium ore.
    Re-enrichment and recycling of RepU is performed by several 
utilities throughout the world. With the current and forecasted costs 
of nuclear fuel sourced from natural uranium, RepU becomes a secondary 
source that is quite attractive. Today, customers are asking AREVA to 
provide them with 100 percent recycling of their RepU. AREVA is making 
investments to ensure 100 percent RepU re-enrichment and RepU fuel 
fabrication by 2015.
    Recycling RepU allows savings of 15 percent of natural uranium 
resources. Recycling plutonium into mixed oxide, or MOX, fuel allows 
about 12 percent of natural uranium savings. Recycling both recovered 
uranium and plutonium leads to a total savings of at least 27 percent 
of natural uranium resources.
    The amount of U.S. commercial used nuclear fuel accumulated by 
2010, 60,000 metric tons, if recycled represents the energy equivalent 
of eight years of nuclear fuel supply for today's entire U.S. nuclear 
reactor fleet. Energy recovery potential is, therefore, significant and 
enhances energy security.
    Recycling is a path to burning plutonium, thereby reducing 
proliferation concerns. Recycling plutonium in MOX fuel consumes 
roughly one-third of the plutonium through single recycling and 
significantly alters the isotopic composition of the remaining 
plutonium, thus severely degrading its potential weapons 
attractiveness.
    Burning plutonium in MOX fuel is the path that has been selected by 
the National Nuclear Security Administration to dispose U.S. weapons-
grade plutonium declared in excess. With the assistance of AREVA, a MOX 
fuel fabrication facility is currently being constructed at the DOE 
Savannah River Site in South Carolina, and it is on track to start 
production of the first MOX fuel by 2016.
    In contrast to the benefits described above, the criticisms of 
spent fuel recycling focus mainly on the following points:

        <bullet>  Non-proliferation

        <bullet>  Cost

        <bullet>  Volume of waste generated

    Non-proliferation. In recent years, a few countries have sought to 
acquire nuclear weapons for reasons of national security, national 
power or national prestige. Their basic motivations were political. It 
is very important to note such countries never intended to use nuclear 
technology to produce a single kilowatt-hour of electricity. Meanwhile, 
the vast majority of countries in the world continue to seek ways to 
produce electricity on an efficient, competitive, sustainable, peaceful 
and responsible basis. They have no interest in developing or accessing 
sensitive nuclear technologies when it does not make economic sense for 
them and as long as security of supply is guaranteed for them.
    There are ways and means to control the spread of material and 
technologies, mainly through the limitation of the number of facilities 
in the world and providing strong guarantees of supply to dissuade most 
countries from developing their own uranium enrichment or reprocessing 
capabilities.
    There is a fundamental question of policy which should be important 
to this committee:

         Would a decision by the U.S. to recycle its used fuel and 
        close the nuclear fuel cycle contribute to proliferation, or 
        would it do the opposite and contribute to nonproliferation?

    Let us examine the case for proliferation by diversion. Today we do 
not know if recycling in the U.S. would be carried out by a government 
entity or a commercial firm. If by a government entity, the diversion 
scenario is not relevant since the Federal Government already has a 
stockpile of weapons-grade plutonium and, therefore, has no use for 
less-effective reactor-grade plutonium. Since the U.S. Government has 
demonstrated an ability to prevent diversion of its weapons material, 
there is no reason to believe it could not prevent diversion of 
material recovered from used fuel by the same means. If recycling is 
done by a commercial entity, the government could impose its own 
safeguards in addition to IAEA safeguards to prevent diversion.
    What about theft of weapons-usable material? The same logic applies 
as for diversion. The Federal Government has been successful at 
protecting its own stockpile of weapons-grade material, so there is no 
reason to believe that it cannot adequately protect less attractive 
reactor-grade materials.
    If diversion or theft of plutonium can be prevented by extensive 
national and international safeguards and physical protection, then 
there remains only one reason for the U.S. to forego recycling and that 
is to avoid setting an example that might be followed by the rest of 
the world. This is the ostensible reason why the U.S. turned its back 
on recycling three decades ago. But that U.S. policy did not prevent 
Britain, France, Japan or Russia from building domestic recycling 
facilities, nor will it prevent China from following suit.
    Notice that the only countries to build such facilities are those 
with a sizable amount of used fuel that makes it economically 
justifiable to do so. Other countries which chose to recycle elected to 
purchase the service rather than build their own facilities. This is 
similar to the model for enrichment espoused by U.S. policy, i.e., 
there is sufficient capacity and robust supply assurances that can make 
proliferation of expensive enrichment facilities unattractive. I would 
argue that the same logic can be applied to recycling and that a U.S. 
decision to offer such a service could prevent many countries from 
building indigenous facilities, thereby enhancing the nonproliferation 
regime.
    Cost. In 2006, The Boston Consulting Group (BCG) performed a study 
with input from AREVA that showed that the economics of recycling as 
compared to direct disposal are comparable, within 10 percent 
difference. The reasons are the following:

        <bullet>  The cost of uranium has significantly increased in 
        the past years, which increases the value of recycled fuel.

        <bullet>  The projected total life cycle cost of a geological 
        repository is high, which provides high value for each cubic 
        unit of emplacement saved due to recycling.

        <bullet>  A large recycling facility, about 2,500 metric tons 
        per year capacity, provides significant cost savings through 
        economies of scale.

    Today, the conclusions of the BCG report are even truer as the 
long-term forecast for uranium cost is going up and the cost of the 
Yucca Mountain repository has also significantly increased.
    Of course, any study depends upon the assumptions made, and other 
studies using different assumptions have produced results different 
from those of BCG. Of note, however, is a respectable study by the 
Congressional Budget Office (CBO) which concluded that costs for 
recycling would be somewhat higher then projected by BCG. However, the 
cost for management of the back-end of the fuel cycle is such a small 
part of the total cost of electricity produced that nuclear power would 
remain competitive even using the CBO estimates. The impact of 
recycling on the cost of electricity is between 0.1 and 0.2 cents per 
kilowatt-hour when the production cost of nuclear electricity is around 
two cents per kilowatt-hour.
    Volume of waste generated. Recycling used fuel generates two types 
of waste streams classified according to their ultimate disposal 
pathway: surface disposal and underground, or geologic, disposal, the 
latter being orders of magnitude more complex, more expensive and more 
sensitive to implement as the focus of public acceptance issues is 
concerned. When comparing solid waste figures between the option to 
directly dispose used fuel or to recycle it, it is therefore 
fundamental to distinguish between those two types of waste.
    As pointed out previously, the volume of material destined for the 
high-level waste repository is reduced by at least 75 percent through 
recycling. Some critics of recycling point out that there is a price to 
be paid for recycling which is an increased volume of low-level waste 
destined for near-surface disposal. Based on AREVA's experience, the 
projected increase in low-level waste to be disposed in near-surface 
facilities were the U.S. to recycle would approximate only 2.5 percent 
of the volume of such waste that is disposed annually in the U.S.

Federal Research, Development and Demonstration

    While industry can be relied on to carry out research and 
development on topics that are of near-term commercial interest, it is 
unrealistic to expect any industry to expend research funds on basic 
science or on topics with a very uncertain or a long-term payoff. It is 
these latter types of research which must be primarily a federal 
priority.
    To its credit, the U.S. Department of Energy has for years devoted 
resources to the Advanced Fuel Cycle Initiative (AFCI). Such research 
should continue, but it should not focus solely on unattainable goals.
    AFCI has often seemed to be a search for the non-existent 
``proliferation-proof'' fuel cycle. It is important to understand that 
the laws of chemistry and physics preclude the existence of such a 
utopian fuel cycle. Any technology that allows the separation and/or 
the concentration of fissionable atoms has the potential for misuse. 
That is why the sensitive fuel cycle activities associated with 
enrichment and recycling must be adequately safeguarded and physically 
protected.
    Even the search for a so-called ``proliferation-resistant'' fuel 
cycle may be a fruitless effort. To date, it appears that there is not 
a great deal of difference in proliferation resistance between any of 
the conceivable, realistic fuel cycles. An undue focus on self-
protecting fuel forms could well lead to a nuclear fuel type which does 
not meet necessary standards for safety and economic efficiency. In 
this case, we should not expect to find a technological solution, a 
proliferation-resistant fuel cycle, for an inherently political 
problem, the proliferation of nuclear weapons. This problem demands 
political solutions, and technology should focus on giving political 
leaders the tools to accomplish their objectives, primarily enhanced 
safeguards systems and physical protection measures.

AREVA's Used Fuel Management Strategy

    When nuclear fuel is discharged from a commercial reactor, it is 
actually not ``spent.'' There is still a significant amount of fissile 
material remaining in used fuel--we call it used fuel instead of spent 
fuel for this very reason--still capable of providing at least 25 
percent more energy. But this energy cannot be delivered in the 
conventional nuclear reactor because the fuel is progressively 
accumulating fission products; it is polluted by the ``ashes'' 
resulting from the fission reaction. Many byproducts of the fission of 
uranium atoms are neutron absorbers. And such absorptions reduce the 
population of neutrons available to induce new fission reactions. Then 
the fission reaction can no longer be sustained appropriately or cost-
effectively.
    This is when recycling comes into play. Recycling consists of 
separating the ``ashes'' from the reusable material, recovering the 
valuable material, uranium and plutonium, and manufacturing fresh new 
fuel out of it.
    In terms of mass, 95 percent of used fuel contents is composed of 
reusable uranium, one percent is reusable plutonium, and the remaining 
four percent is actual waste which contains practically no remaining 
fissile material nor any energy value for the current and near-future 
generation of reactors. Recovered uranium is re-enriched and used to 
fabricate fresh new fuel, where the fissile material is 
U<SUP>235</SUP>. Recovered plutonium is blended with depleted uranium 
to fabricate MOX, or mixed oxide, fuel, where the fissile materials are 
Pu<SUP>239</SUP> and Pu<SUP>241</SUP>.
    The four percent of actual waste is then specially packed through 
vitrification in order to provide a safe waste form with a very long-
term stability. The vitrified waste is the package that is bound for 
disposal in a geological repository, together with the metallic 
structures of the fuel bundle.
    AREVA today uses an aqueous process to recover the uranium and 
plutonium. It is an updated version of the PUREX process invented in 
the U.S. Future AREVA facilities will benefit from lessons learned and 
continuous improvement of our technology. The main features of new 
plants would be:

        <bullet>  Implementation of the new enhanced COEXTM process 
        where no pure plutonium is separated anywhere in the facility, 
        as a replacement for today's PUREX process.

        <bullet>  Co-location of treatment and fuel fabrication plants 
        to avoid transportation of intermediate nuclear material 
        outside of the facilities.

        <bullet>  Overall enhanced safeguards systems and ``safeguards 
        by design'' approaches.

    This is what is available and possible today and in the near to 
medium future. Current research is focusing on future processes capable 
to further extract material from the ``ashes'' that could be burned in 
a new generation of fast neutron spectrum reactors. In such next 
generation, Generation IV reactors, more atoms and more isotopes become 
fissionable because the fast neutrons produced are of much higher 
energy. Moreover, the long-lived actinides, which heavily drive the 
requirements for confinement in geological disposal, could be broken 
into shorter live atoms which, in theory, could lead to a dramatic 
reduction of the volume required to dispose remaining waste in a 
geological repository.
    This is a very long-term story, probably 50 to 60 years before the 
first commercial operation. Of course, one could choose to wait for 
Generation IV recycling technologies, but the price to be paid for 
waiting is an enormous increase in world inventories of plutonium in 
used fuel and an enormous waste of energy potential if the used fuel is 
irretrievably disposed. It is also contrary to sustainable development 
principles under which we promise our children not to burden them with 
the legacy of our consumption.

Environmental Impacts and Nuclear Security

    Protection of workers and of the environment is at the highest of 
AREVA's priorities. The environmental impact of our La Hague treatment 
operations remains below the natural background radiation level. The 
maximum potential impact on the most highly-exposed sectors of the 
public remains 100 times less than the natural radioactivity level. The 
natural background exposure at La Hague is about 2.4 millisieverts per 
year. The highest local exposure to farmers or fishermen is less than 
0.02 millisieverts per year, which is equivalent to the exposure 
received by a passenger during one New York to Paris trans-Atlantic 
flight.
    AREVA La Hague performs systematic and in-depth monitoring of the 
environment in the air, on land (e.g., surface water, grass and milk) 
and at sea (e.g., coastal waters, fish and seaweed) around the site. A 
host of measurements are taken; around 23,000 samples are taken every 
year, and 70,000 analyses are made every year under the scrutiny of 
independent authorities who also perform their own sampling and 
analyses.
    AREVA takes very seriously its responsibility to minimize the risk 
of proliferation of sensitive nuclear facilities and materials. We 
believe that the spread of recycling and uranium enrichment 
technologies should be limited. At the recent Carnegie Endowment for 
International Peace meeting held in Washington, AREVA Chief Executive 
Officer Anne Lauvergeon stated emphatically that at this time there are 
only two countries to which AREVA would export its recycling 
technologies: the U.S. and China.
    Strong guarantees of supply should dissuade the vast majority of 
countries from developing their own capabilities for recycling and 
enrichment. Industry support and a commercial model ensuring 
competition, profitability and reliability are necessary in this 
regard. Existence of a few competitors will provide the guarantee of 
continuous supplies at reasonable prices. Large-scale profitable 
facilities and industries are therefore an important asset. Long-term 
contracts can ensure credibility and sustainability of commitments.
    France has developed a model under which it can accept used fuel to 
recycle in its domestic facilities, burn recovered plutonium in its 
reactors and return the waste to the country where the fuel was used to 
produce energy. Other countries may choose to retain the high-level 
waste and dispose of it along with their domestic waste in the future. 
In either case, there is no proliferation threat from the vitrified 
products of recycling.
    New recycling plants in the world should incorporate enhanced 
nonproliferation and security features such as the COEXTM process with 
no pure separated plutonium, co-location of treatment and fuel 
fabrication plants to avoid intermediate nuclear material 
transportation, and robust safeguards systems and ``safeguards by 
design'' approaches.

The Future of Safe and Efficient Recycling

    While AREVA takes pride in the successful operation of its 
recycling complex centered at the La Hague and MELOX facilities, we are 
convinced that further improvements can be made. In fact, continuous 
improvements have been made in France over the previous three decades 
based on research and development. Much of what has been learned was 
incorporated into the design of the Japanese recycling treatment plant 
at Rokkasho-mura. Future plants wherever they are located should take 
advantage of the advanced safeguards procedures built into the 
Rokkasho-mura facility and should also implement advanced technology 
such as COEXTM, which does not separate pure plutonium.
    In addition, AREVA believes that there are other areas for 
research, development and demonstration. Off-site doses are highly 
dependent on specific locations, as are the allowable levels of gaseous 
and liquid discharges. Research, development and demonstration should 
be concentrated on reducing the minimal gaseous and liquid discharges 
that arise from current processing technologies. The capture, packaging 
and disposal of gases and liquids are areas ripe for research. At the 
same time, such research should focus on the cost-benefit analysis of 
limiting discharges while assuring that worker dose rates are not 
inappropriately increased.
    In the long-term, and especially in conjunction with the future 
implementation of Generation IV reactor technologies, electro-
metallurgical separations may become a useful technology. Such 
separations technology has not yet reached the level of maturity found 
today with aqueous processing. This is another area suitable for 
research at the U.S. national laboratories because of the long-term 
time horizon for widespread commercial implementation.
    Finally, further federal research, development and demonstration 
should be devoted to advanced safeguards technologies such as advanced 
instrumentation that will allow near-real time material accountancy. 
The development of that technology would contribute significantly to 
enhancing the assurance that sensitive materials are not being 
diverted.
    Mr. Chairman and Members of the Committee, I appreciate having this 
opportunity to join you today. I am delighted that our lawmakers have 
taken an interest in advanced technology for nuclear fuel recycling. A 
used fuel recycling facility should be built in the U.S. in the near 
future in order not to postpone the waste management issue once again 
and for America to regain global leadership.
    A nuclear renaissance is undeniably happening around the world. 
Britain, France, China, Japan and Russia have already built or are 
developing recycling capabilities. America was the first to develop 
this technology, we were the first to send a man to the Moon, and it is 
time for America to take the lead again. AREVA would be pleased to 
cooperate with the U.S. Department of Energy to further research, 
development and demonstration on recycling.

                      Biography for Alan S. Hanson

    Alan Hanson was appointed Executive Vice President, Technology and 
Used Fuel Management, of AREVA NC Inc. in 2005. He was formerly 
President and Chief Executive Officer of AREVA subsidiary Transnuclear, 
Inc., which he first joined in 1985. He continues his responsibilities 
there as a Director of the company.
    Dr. Hanson began his career in 1975 with the Nuclear Services 
Division of Yankee Atomic Electric Company. In 1979, he joined the 
International Atomic Energy Agency in Vienna, Austria, where he served 
first as Coordinator of the International Spent Fuel Management Program 
and later as Policy Analyst with responsibilities for safeguards and 
nonproliferation policies.
    Dr. Hanson completed his undergraduate studies in mechanical 
engineering at Stanford University and earned a Ph.D. in nuclear 
engineering from the Massachusetts Institute of Technology. He is a 
member of the American Nuclear Society and the American Society of 
Mechanical Engineers.

    Chairman Gordon. Thank you, Dr. Hanson.
    And now Ms. Price, you are recognized for five minutes.

   STATEMENT OF MS. LISA M. PRICE, SENIOR VICE PRESIDENT, GE 
 HITACHI NUCLEAR ENERGY AMERICAS LLC; CHIEF EXECUTIVE OFFICER, 
                    GLOBAL NUCLEAR FUEL, LLC

    Ms. Price. Mr. Chairman, Dr. Ehlers and Members of the 
Committee, I appreciate the opportunity to speak with you today 
on a suggested approach for research, development and 
demonstration for nuclear fuel recycling.
    GE Hitachi Nuclear Energy developed this approach based on 
technology originally funded by the Department of Energy. The 
options for dealing with the nuclear waste problem can really 
be categorized in three ways, in the three Rs: repository, 
reprocess or recycle. However, the differences between those 
three Rs drive the way you think about the opportunities and 
how to proceed. Long-term storage would be required in any of 
these scenarios. However, the amount of time that waste would 
have to be isolated in a repository depends on which R is 
selected. Now, why is that? It is because the most significant 
factor impacting long-term storage is the amount of heat that 
is generated principally by four elements in the used nuclear 
fuel called transuranics. The three Rs differ in how these 
transuranics are handled. So let us look at the three Rs 
briefly.
    Repository refers to sequestering the used nuclear fuel in 
a permanent repository. A typical spent fuel bundle will see 
significant heat reduction after hundreds of thousands of 
years. Reprocessing, which extracts plutonium, one of the 
transuranics, and incorporates that plutonium into mixed oxide 
fuel which is burned in light water reactors, is improved over 
a repository because it extracts plutonium. However, 
reprocessing will see significant heat reduction after 
thousands of years. Recycling, on the other hand, fuels a 
sodium-cooled reactor with all of the transuranics. Because the 
transuranics are almost completely burned up and consumed as 
power is generated by the reactor, they are not part of the 
waste stream and that significantly reduces the heat load on 
the repository to hundreds of years rather than thousands or 
hundreds of thousands of years.
    With that, I have four recommendations for the Committee. 
First, work with industry to drive research, development and 
demonstration for recycling. GE Hitachi has developed a 
framework for research on closing the fuel cycle and we have 
actually submitted that to Michelle\1\ in advance of this 
testimony. We recognize the critical importance of working with 
our national labs and our universities in advancing research 
and development work in support of this effort. Number two, 
fund research that leads to logical development in areas like 
licensing, manufacturing and design validation and advanced 
separation technologies. Three, we should continue to fund 
basic research in advanced technologies for closing the fuel 
cycle. And lastly, we should fund demonstrations that will 
provide the data that will support an informed decision on 
commercially deploying potential back-end fuel cycle solutions.
---------------------------------------------------------------------------
    \1\ Energy and Environment Majority Professional Staff Michelle 
Dallafior
---------------------------------------------------------------------------
    The Nation has an opportunity today to lead a 
transformation to a new, safer and more secure approach to 
nuclear energy and recycling with a sodium-cooled reactor and 
electro-metallurgical processing can close the fuel cycle. Our 
technology and our solution approach meets the government's 
goals. It generates additional incremental carbon-free 
electricity. It provides enhanced energy security. It provides 
additional options for geologic storage greater than that which 
exists today. It can reduce proliferation concerns and nuclear 
waste volumes, and importantly, it positions the United States 
to be in a unique position to exert its leadership once again 
in nuclear science and technology.
    Thank you, Mr. Chairman and the Committee.
    [The prepared statement of Ms. Price follows:]

                  Prepared Statement of Lisa M. Price

    Mr. Chairman, Congressman Hall, and Members of the Committee, I 
appreciate this opportunity to provide you with a description of a 
suggested approach to managing Used Nuclear Fuel (UNF) from our 
nation's fleet of nuclear power reactors. GE Hitachi Nuclear Energy 
(GEH) has developed this approach based on technology originally 
developed with funding from the Department of Energy. We believe that 
with well-focused research and development and timely demonstrations, 
the United States can move toward closing the nuclear fuel cycle. 
Closing the fuel cycle would mean changing our nuclear fuel management 
philosophy from ``once through'' with repository management to near 
total consumption of the fuel's energy and considerably reduced 
repository management of the waste. Our current (and growing) inventory 
of ``once through'' used nuclear fuel is an energy asset. We can 
realize maximum value of this asset by:

        1.  utilizing established processes--which importantly do not 
        separate pure plutonium, thus markedly reducing proliferation 
        concerns--to recycle the fuel into a usable form;

        2.  refissioning the recycled fuel in a sodium-cooled reactor 
        to produce electricity, which helps meet growing demand for 
        electricity; and

        3.  producing final waste by this process that has 
        significantly reduced radiological toxicity, which allows for 
        improved repository characteristics and shorter management time 
        as compared to ``once through'' and reprocessing technologies 
        currently in use today.

    Abundant, reliable and sustainable energy is essential for the 
health, safety and productivity of society. Nuclear power supplies 
approximately 20 percent of the electricity generated in the United 
States, and many other countries are pursuing nuclear power as to meet 
growing energy needs. The United States needs to strengthen our 
research and development to participate in and lead in this growth. GEH 
supports the Committee's evaluation of recycling approaches to closing 
the nuclear fuel cycle as foundational to realizing the benefits of 
increased nuclear power production to meet our own demand for 
electricity. In so doing, we will be positioned to make real and 
significant contributions to meeting international energy security 
needs as well.
    In my previous roles as GE's General Manager of Global Business 
Development at GE Corporate and GE Energy, I developed an understanding 
of the complex financing issues facing new approaches in the market 
place. In my current roles as Senior Vice President, GEH and Chief 
Executive Officer of Global Nuclear Fuel, LLC, I am working to 
integrate the Advanced Recycling Center, comprised of a sodium-cooled 
reactor with an electro-metallurgical nuclear fuel recycling facility, 
into our nation's energy mix. I will describe the Advanced Recycling 
Center later in my testimony. Recently GEH has been working with our 
nation's national laboratories, universities, and some of our allies 
abroad in advancing this technology to close the fuel cycle.
    Mr. Chairman, based on the focus of this session, I have divided my 
testimony into two broad areas: First, why should the U.S. pursue 
Nuclear Fuel Recycling? Then, what reasoned Research, Development, and 
Demonstration strategies could be properly formulated to advance the 
technology? Within these broad areas I will provide a detailed summary 
of mutually supportive transformational technologies to recycling 
nuclear fuel. We believe this approach presents a different and 
compelling option for the Committee to consider as a viable solution 
for managing used nuclear fuel in the United States, and advancing the 
nuclear renaissance.

Why Consider Recycling?

    The U.S. position on nuclear energy and the potential for PRISM 
technology was articulated earlier this year:

         ``Looking towards the future, our Department of Energy is 
        currently restructuring its fuel cycle activities, which were 
        previously focused on the near-term deployment of recycling 
        processes and advanced reactor designs, into a long-term, 
        science-based, research and development program focused on the 
        technical challenges associated with managing the back end of 
        the fuel cycle. These challenges will be thoroughly vetted and 
        resolved as we explore long-term solutions for management and 
        disposition of our spent nuclear fuel.''

         Ambassador Schulte's Remarks on Behalf of Energy Secretary 
        Chu, IAEA international Ministerial Conference, Beijing, April 
        2022, 2009.

    We can continue down the same path for used nuclear fuel that we 
have been on for the last thirty years, or we can lead a transformation 
to a new, safer, and more secure approach to nuclear energy. We need an 
approach that brings the benefits of nuclear energy to the world while 
reducing proliferation concerns and nuclear waste. But first I would 
like to share how we define recycling.
    In response to recent interest in increasing the use of nuclear 
power to produce electricity, the options for solving the nuclear waste 
problem boil down into what I call the three Rs: Repository, Reprocess, 
Recycle. Ideally, government policy should accelerate the most 
comprehensive science-based solution.
    The three policy choices available for managing nuclear waste are:

         Repository--sequestering used fuel in a permanent Repository.

         Reprocess--placing the plutonium from the used nuclear fuel 
        into Mixed Oxide (MOX) fuel for use in existing light water 
        reactors. Reprocessing places the fission products and high-
        heat-load transuranics (also known as actinides) in a permanent 
        Repository.

         Recycle--fueling a sodium-cooled reactor with the long half-
        life transuranics from used fuel. Recycling places a much 
        smaller heat-generating load (predominantly fission products) 
        in a Repository. These shorter-lived elements only require that 
        the repository be managed as a high level waste facility for a 
        few hundred years.

    Our efforts have led us to conclude that the Recycling approach is 
the best science-based solution, whereas Reprocessing is only 
considered a temporary or intermediate solution, even in the countries 
where it is used today (UK, France, and Japan). These countries 
continue to pursue a long-term option of recycling using sodium-cooled 
reactors, though over a much longer time frame than we believe would be 
needed by leveraging U.S. technology.
    It is important to understand the basic science to better 
understand the three Rs. Two questions must be answered for a full 
understanding of the three Rs: 1) what is the composition of nuclear 
waste and 2) what is the proper metric for making policy choices 
regarding Repository, Reprocess, or Recycle?
    Composition of nuclear waste: Uranium is a naturally occurring 
metal mined from the Earth. The raw uranium commodity has value added 
by conversion from ore to near-pure uranium, by enrichment to raise the 
concentration of U<SUP>235</SUP> from 0.7 percent to approximately 5.0 
percent, and by fabrication into fuel rods that are packaged into a 
fuel bundle that is sold to the utility to be fissioned in the core of 
a nuclear power reactor. In the reactor, the nuclear fuel bundle 
produces heat for several years until most of the U<SUP>235</SUP> is 
consumed, taking it from an initial five percent down to less than one 
percent. It is then a used fuel bundle to be removed from the reactor, 
defined by law as ``high level nuclear waste.'' The composition of this 
``high level nuclear waste'' is still 95 percent uranium dioxide, with 
new fission products (about four percent), and new transuranics (about 
one percent). This one percent of transuranics (elements bigger than 
uranium such as neptunium (Np), plutonium (Pu), americium (Am) and 
curium (Cm)) generates ``99.9'' percent of the public policy concerns.
    Correct science metric for evaluation: In the public mind, and even 
in the legislation providing for the Yucca Mountain Repository, the 
terms ``mass'' and ``volume'' are used. However, mass and volume are 
not the most important concerns in managing nuclear waste; heat is--a 
reality that has implications for this public policy.
    Nuclear fuel is unique in that its radioactivity heats the used 
fuel and its surroundings. The heat generated--the energy released--
over the long-term by the radioactive components that have a long-half 
life is the limiting factor. The four principal transuranics in the 
nuclear spent fuel--Np, Pu, Am, and Cm, produce the majority of the 
long-term heat. Reducing transuranics in waste to be sent to a 
repository reduces long-term heat generation from 100,000s of years to 
hundreds of years, so processes that provide the opportunity to 
consider broader geological characteristics of a repository will need 
to reduce long-term heat from transuranics. This means that, although 
mass and volume are important considerations, they are not the most 
significant issues for a repository, heat is.
    Recognizing the significance of long-term heat generation, let's 
compare the three Rs. Figure 1 shows the reduction in heat over time 
for each of the three Rs:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The line labeled ``Repository'' shows how the long-term heat 
generation--the radioactivity--of a typical used nuclear fuel bundle 
from a contemporary commercial nuclear power reactor decreases over 
time in an underground Repository. A typical used fuel bundle has 
significant heat reduction after hundreds of thousands of years.
    The ``Reprocessing'' line shows the long-term decline in the heat 
generated by vitrified waste, the waste product of the currently 
established aqueous reprocessing of Light Water Reactor (LWR) fuel that 
would be placed into a Repository. Reprocessing has significant heat 
reduction after a thousand years.
    The line labeled ``Recycling'' shows the long-term heat generation 
of the ``real'' waste--the metallic and ceramic waste from used nuclear 
fuel. The impacts from the Recycling option are markedly reduced 
because almost all of the transuranics--the producers of significant 
long-term heat loading--are separated and consumed (or fissioned) in 
the sodium-cooled reactor as it generates power so they are not part of 
the waste stream that goes to the Repository.
    Note that each of the three Rs do produce waste that must be 
isolated. We need to be clear that long-term storage--a repository--for 
nuclear waste will be needed for any of these options. The required 
isolation time, however, depends on the strategy selected--hundreds of 
thousands of years for the direct Repository option, thousands of years 
for the Reprocessing option, versus hundreds of years for the Recycling 
option.
    Each ``R'' encompasses niche processes that have some variations--
such as composition of Repository host rock; choice of aqueous MOX 
Reprocessing technology (PUREX, UREX, NUEC, COEX); separations 
technology for Recycling (aqueous or electro-metallurgy); kind of 
sodium-cooled reactor (loop versus pool); consumption ratios--but these 
variations have only minor effects on the conclusion that can be drawn 
from the data presented above.
    Further, light water reactors cannot operate at the high burn up 
rates to consume transuranics, so the comparison of Reprocessing and 
Recycling are fundamental. Thus, general conclusions for each of the 
three scenarios can be improved by optimizing its contributing 
variables, but prior to optimization a path to the solution needs to be 
identified. My staff can provide more details if the Committee desires.

PRISM, a Gen IV solution

    The Department of Energy is seeking ``. . . a long-term, science-
based research and development program focuses on the technical 
challenges associated with managing the back end of the fuel cycle.'' 
We think we can sharpen that focus by leveraging from past lessons from 
the Advanced Liquid Metal Reactor Program (ALMR). The ALMR program was 
started in 1984 to develop sodium-cooled reactors for a variety of 
missions including: better utilization of energy in uranium, 
minimization of proliferation concerns by consuming weapons grade 
plutonium, and consumption of (via fission) long half-life transuranics 
in used nuclear fuel, thus reducing the long-term heat loading in a 
geologic repository. This program was on track to deploy a sodium-
cooled reactor to consume used LWR fuel while producing electricity. 
Unfortunately, the ALMR project ended in 1995. Subsequently, the DOE 
shut down EBR-II (in Idaho) and the Fast Flux Test Facility (FFTF--a 
sodium reactor in Washington State), two outstanding sodium-cooled 
reactors. These actions cast the U.S. advanced nuclear reactor programs 
adrift and diminished the leadership role the U.S. had played in 
nuclear power research and development.
    With the growing recognition that a portion of our future energy 
needs should be met using nuclear power, resurrecting, improving and 
implementing the R&D path set by ALMR program would be a prudent 
starting point. By conducting research and development of sodium-cooled 
reactor technology, the U.S. can regain technology leadership and 
create thousands of good, high quality long-term jobs.
    The ALMR program coupled two technologies together in a balanced 
system: 1) the sodium-cool reactor, and 2) separations technology based 
on a dry process (without water) using molten salts. Again my staff and 
the previous work by the GEH team can provide numerous details about 
these two technologies and the science behind them. Briefly, the 
environmental impetus for sodium-cooled reactor development is three 
fold: 1) reduce mineral resource extraction (the mining of uranium), 2) 
significantly decrease radiotoxicity (half-life) of long-lived 
constituents in LWR used fuel (transuranics) from millions of years to 
a few hundred years; and 3) produce large amounts of carbon-emission 
free power.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Figure 2 illustrates the closed fuel cycle. Fuel from existing 
plants is transported to a facility that separates the fuel into three 
constituents. The three constituents are 1) uranium that is recycled 
for use in LWR reactors, 2) transuranics (Pu, Np, Cm and others) that 
are used to fuel a sodium-cooled reactor and 3) fission product wastes 
that are to be placed in a geological repository.
    To understand the transformational shift the sodium-cooled reactor 
coupled with dry processing in our Advanced Recycling Center would 
establish within the nuclear power arena, it is helpful to consider an 
analogy to internal combustion engine development. In 1892 the gas 
combustion engine was patented using gasoline, a waste product from 
crude oil processing. Diesel engine development, started in 1898, used 
another portion of crude oil. Both gas and diesel engines release 
energy from combustion, but the methods to initiate combustion are 
fundamentally different. Which internal combustion engine is better? 
Neither--both are functional, are not detrimental to the other, and 
improve the total fuel cycle use from a single petroleum energy source. 
Shifting to nuclear power, the current commercial market is 
approximately $30 billion based on one technology--water moderated 
reactors (grouping light water & heavy water reactors together). 
Sodium-cooled reactors are transformational and add a new functional 
market segment and technology. Which reactor type is better? Neither--
both are functional, are not detrimental to the other, and improve the 
total fuel cycle from the nuclear energy source. Energy from Earth's 
uranium is better utilized by the symbiotic combination of water and 
sodium reactors. The long-lived radioactive transuranics elements (Np, 
Pu, Am, and Cm) from used water-cooled reactor fuel are now fuel in the 
sodium-cooled reactor. Additionally, excess plutonium from this 
nation's weapons program can be used as start-up fuel for initial 
demonstrations.
    GEH ideas for Research, Development, and Demonstration of the 
transformational solutions are presented in the next section. Each step 
is critical to advancing technology for nuclear fuel recycling. Policy 
decisions about paths to take in dealing with nuclear waste can be made 
now.

Advancing Technology for Nuclear Fuel Recycling

    As this Committee searches for policy options for ``Advancing 
Technology for Nuclear Fuel Recycling,'' please consider the merits of 
more integrated science-based solutions. Funding to advance sodium-
cooled reactors would provide the foundation for science-based R&D for 
cross-cutting solutions to challenges facing the Nation in a variety of 
areas, including:

Nuclear Waste Disposal: What is the best solution for nuclear waste 
disposal? Solution: Through science, prove that transuranics (Np, Pu, 
Am, and Cm) contained in used nuclear fuel can fuel a sodium-cooled 
reactor. The ``waste,'' or fission products, from such a reactor has 
significantly reduced long-term radiotoxicity. As discussed above this 
strategy significantly reduces the time frame for safe and secure waste 
management within a geologic repository.

Nuclear Energy: What is the spark to build advanced light water reactor 
technology, and focus Generation IV & Fuel Cycle R&D? Solution: A bold 
leadership move to support advanced sodium-cooled technology would 
lower Greenhouse Gas (GHG) emissions from power generation, supply 
clean secure energy, improve economic prosperity through job creation 
and enhance national security through initial plutonium consumption. 
Starting this work now would improve market confidence that there is a 
future for nuclear power.

NNSA: Fissile Materials Disposition alternatives? Solution: Disposition 
of five metric tons of plutonium (melting classified shapes with the 
correct amount of uranium and zirconium, producing the metallic alloy 
UPuZr) to start up the PRISM. This would eliminate the costly plutonium 
purification step needed when weapons plutonium is used as LWR fuel and 
support the re-establishment of U.S. international leadership.
    Many technologists and industry participants globally agree that 
the sodium-cooled reactor is needed; however, some claim that further 
research is needed and that this technology can wait until 2050. In 
contrast, GEH is pleased to share ideas that should be pursued in 
Research, Development and Demonstration in the near-term.

. . . Our Ideas for Research

    GEH published ``GE Hitachi Nuclear Energy Technology Development 
Roadmap: Facilities for Closing the Fuel Cycle,'' which outlines the 
framework for focused research.
    While GE has Global Research centers that tackle the pure basic 
research issues, our Fuel Cycle Business does not actively perform 
basic science research. That is not our role, nor is it our domain 
expertise. That said, we recognize that we must partner with the 
experts at our national laboratories and universities.
    Recently GEH has been working with several national laboratories, 
including, Argonne, Idaho, Los Alamos, Oak Ridge and Savannah River, on 
the research that is needed to close the nuclear fuel cycle. Further, 
we have been working with select universities in basic research 
activities to close the nuclear fuel cycle. Lastly GEH has supported 
universities in Nuclear Energy Research Initiatives-Consortium (NERI-C) 
in science research needed to close the fuel cycle.
    We cannot emphasize enough our support for the strong science role 
of our nation's national laboratories and universities in this area. 
However, we must accompany basic research with applied research. By 
combining basic and applied research, we will explore new frontiers 
while developing solutions to our pressing problems.

. . . Our Ideas for Development

    GEH continues to be a leader in nuclear science and technology 
through our ability to bring products to market. We have expertise and 
internal processes for quality, new product introduction, risk 
assessments, environmental, health & safety, licensing and regulatory 
programs. We are looking into broad areas of isotope development, and 
next-generation laser enrichment technologies, in addition to our work 
on closing the nuclear fuel cycle.
    We see such Development as a key area where industry (GEH) can work 
with the national labs and the DOE in support of this committee's goal 
of coming up with science-based solutions to nuclear waste issues. 
Specifically, I'd like to offer these suggestions:

1) Licensing: A sodium-cooled reactor that produces power requires 
(among other things) a license from the U.S. Nuclear Regulatory 
Commission. Therefore, a development path similar to Congress' Energy 
Policy Act (EPACT) 2005 Nuclear Title on Next Generation Nuclear Plant 
(NGNP) licensing activities would produce the required Tier 1 and Tier 
2 Design Control Documents for preliminary submittal to the NRC. 
Developing the Design Control Documents will help focus research while 
clarifying the feasibility and timeframe for sodium cooled reactor 
development.

2) Manufacturing & Design Validation: U.S.-based fabrication, 
transportation, and placement of a full-sized PRISM reactor vessel at a 
U.S. university (as a user facility). The vessel would be filled with 
water (to simulate sodium) to improve component and system technology 
readiness levels of the reactor system. This R&D platform would offer 
several benefits: reduced risk, shortened time for licensing 
activities, expanded U.S. manufacturing base, and availability of an 
advanced R&D platform for U.S. universities and national laboratories. 
After the manufacturing and design validation phase, the next step 
would be fabrication of a second PRISM reactor vessel to be located at 
a U.S. national laboratory, which would be filled with sodium to 
further the development process (as discussed below).

3) Separation Technology Advancement: While basic research is needed in 
transuranic separations, dry, electro-metallurgical, processing can be 
advanced by demonstrations using excess uranium. Commercial and 
government facilities have uranium that is too contaminated to use in 
commercial reactors. By developing an electro-metallurgical processing 
demonstration facility, the uranium can be unlocked while advancing the 
science needed to perform advanced separations on used fuel.

. . . Our Ideas for Demonstration

    Future technology performance can be difficult to establish. 
Therefore, GEH regularly assesses the future potential of a tool, 
technology, and reactor concept improvement through a Demonstration. 
Demonstration is an integral part of the Research and Development 
process. A future demonstration of the sodium-cooled reactor and 
separations processes will allow us to gather important technical 
information that will position the technology for success. Two 
demonstrations are needed:

        1.  Fabricate (in the U.S.), transport, and place a full-sized 
        PRISM reactor vessel at a U.S. national laboratory (as a user-
        demonstration facility). Fill this vessel with sodium to 
        improve component and system technology readiness levels of the 
        reactor system, through large-scale demonstration of 
        technologies proved in the Research and Development component. 
        After this is completed this Science and Technology Committee 
        and other key decision-makers will be in a position to evaluate 
        the data and performance to make an informed choice about cost 
        and schedule to implement the Recycling solution.

        2.  Operate an electro-metallurgical demonstration of used 
        nuclear fuel at one of the following locations: INL (leveraging 
        previous EBR-II facilities), or PNNL (leveraging the previously 
        built, but never used Fuels Materials Examination Facility 
        (FMEF) ), or potentially GEH's Morris, IL facility. This 
        demonstration would help transition Research & Development 
        activities on uranium recovery to the more difficult 
        demonstration with used nuclear fuel, with its inherent high 
        radiation issues.

Summary of Recommendations

    My recommendations for the Committee when developing a strategy to 
``Advance Technology for Nuclear Fuel Recycling'' in the area of 
Research, Development and Demonstration are:

        1)  Work with industry to drive the Research, Development and 
        Demonstration of Recycling--the most comprehensive solution for 
        used nuclear fuel

        2)  Fund Research that builds to logical Development and is 
        followed by meaningful Demonstrations

        3)  Continue to fund basic Research activities to look for 
        advanced solutions on closing the nuclear fuel cycle with input 
        from industry and others

        4)  Fund Demonstrations to provide meaningful data on 
        economics, operating performance and risks, and schedule risks 
        that will support informed decisions regarding future 
        commercial activities.

    Our nation has already made much of the necessary investment in 
facilities, analysis, study, research and experimentation on the 
foundation necessary to support the design and deployment of sodium-
cooled reactors. The national laboratories have amassed extensive 
documentation and proof of the PRISM concept, its safety, and its 
viability. We should take advantage of that wealth of knowledge and 
expertise, and move ahead with a comprehensive Research, Development 
and Demonstration program. As the last U.S. majority owned reactor 
vendor, GEH is ready to partner with the Federal Government in this 
important effort.
    The Nation faces a choice today: We can continue down the same path 
that we have been on for the last thirty years or we can lead a 
transformation to a new, safer, and more secure approach to nuclear 
energy, an approach that brings the benefits of nuclear energy to the 
world while reducing proliferation concerns and nuclear waste.
    PRISM coupled with electro-metallurgical processing is a technology 
solution that can close the nuclear fuel cycle using the energy 
contained in our nation's spent nuclear fuel. PRISM can generate stable 
base load electricity to help meet our growing electricity needs and 
enhance our energy security. As we do so, we expand the options for 
geologic storage. A choice to go down the path of Recycling will 
provide a unique opportunity to regain the historical U.S. leadership 
position in nuclear science and technology.
    Thank you. This concludes my formal statement. I would be pleased 
to answer any questions you may have at this time.

                      Biography for Lisa M. Price

    Lisa was named Senior Vice President, GE Hitachi Nuclear Energy 
(GEH) and Chief Executive Officer of Global Nuclear Fuel, LLC, the 
legal entity that manages the Global Nuclear Fuel joint venture of GE, 
Hitachi and Toshiba, headquartered in Wilmington, North Carolina in 
April 2008. In her role Lisa leads all nuclear fuel cycle activities 
for GEH, including the global BWR fuel business, advanced programs and 
the recently formed laser enrichment business.
    Lisa joined GEH from her most recent role as General Manager, 
Business Development for GE Energy, an prior to that for GE Corporate. 
In these roles she and her team successfully completed numerous 
transactions that added to the inorganic growth of GE and GE Energy.
    Lisa earned a BS in Chemical Engineering from Virginia Polytechnic 
Institute & State University and an MBA from Tulane University. After 
earning her MBA, Lisa spent nearly eight years at Goldman, Sachs & Co. 
and two years at Deutsche Bank, where she focused on mergers and 
acquisitions in the energy, utility and oil & gas industries. Prior to 
that, Lisa served in a variety of operating and environmental positions 
with FreeportMcMoRan, Inc., including power plant operating roles with 
Freeport Sulphur Company, Corporate Environmental Auditing program 
leader and Environmental Manager for Agrico Chemical Company's 
Louisiana Chemical Operations. Lisa joined GE in 2005.
    Lisa serves on the Virginia Tech College of Engineering Advisory 
Board and is a member of the Committee of 100. Lisa is also a member of 
Women in Nuclear.

    Chairman Gordon. Thank you, Ms. Price.
    Dr. Ferguson, you are recognized.

  STATEMENT OF DR. CHARLES D. FERGUSON, PHILIP D. REED SENIOR 
FELLOW FOR SCIENCE AND TECHNOLOGY, COUNCIL ON FOREIGN RELATIONS

    Dr. Ferguson. Thank you, Mr. Chairman, Dr. Ehlers and 
Members of the Committee for inviting me to testify. I request 
that my written comments be entered into the official record. 
In the following remarks I briefly discuss major findings and 
recommendations based on the written testimony.
    The United States has sought to prevent the spread of 
reprocessing facilities to other countries and to encourage 
countries with existing stockpiles to separate plutonium from 
reprocessing facilities to draw down those stockpiles. The 
United States should reaffirm and strengthen this policy. 
Reprocessing of the type currently practiced in a handful of 
countries poses a significant proliferation threat because the 
separation of plutonium from highly radioactive fission 
products separates it from a protected barrier against theft. A 
thief, if he had access, could easily carry away separated 
plutonium. Fortunately, this reprocessing is confined to 
nuclear arms states except for Japan. If this practice spreads 
to other non-nuclear weapons states, the consequences for 
national and international security could be dire.
    Presently, the vast majority of the 31 states with nuclear 
power programs do not have reprocessing plants. U.S. policy has 
been effective in setting an example in limiting the spread of 
reprocessing. Japan, France and Russia launched their 
reprocessing programs before U.S. policy that was set in the 
Ford Administration in 1976 and reaffirmed in the Carter 
Administration in 1977, but we see that two countries in 
particular are of concern. The Republic of Korea is renewing 
its 123 agreement with the United States. As I point out in my 
written testimony, they are interested in reprocessing. We need 
to reaffirm that reprocessing is not something that should be 
done on the Korean Peninsula, especially when we are dealing 
with a nuclear-armed North Korea. The United Arab Emirates in 
its 123 agreement has a clause at the very end of the agreement 
on equal terms and conditions that could open the door to the 
UAE engaging in reprocessing or uranium enrichment in the 
future, depending on what other countries in the Middle East 
do, especially Jordan. I was just in Jordan two months ago and 
found out their plans.
    Global stockpiles of civilian plutonium are growing at 
about 250 metric tons, equivalent to tens of thousands nuclear 
bombs or comparable to the global stockpile of military 
plutonium, and more than 1,000 metric tons of plutonium is 
contained in spent nuclear fuel in about 30 countries. The 
types of reprocessing that were examined under the Global 
Nuclear Energy Partnership, or GNEP, do not appear to offer 
substantial proliferation-resistant benefits according to 
research sponsored by the Department of Energy. Moreover, the 
DOE assessment points out that these techniques pose additional 
safeguard challenges. For example, it is difficult to do an 
accurate accounting of the amount of plutonium in a bulk 
handling reprocessing facility that produces plutonium mixed 
with other transuranic elements. This challenge raises the 
probability of diversion of plutonium by insiders. However, 
more research is needed to determine what additional safeguards 
could provide greater assurances that reprocessing methods are 
not misused in weapons programs and whether it is possible to 
have assurances of timely detection of a diversion of a 
significant quantity of plutonium or other fissile material.
    Time is on the side of the United States. There is no need 
to rush toward development and deployment of recycling of spent 
nuclear fuel. Based on the foreseeable price for uranium and 
uranium enrichment services and the known reserves of uranium, 
this practice is presently far more expensive than the once-
through uranium fuel cycle. Nonetheless, more research is 
needed to determine the cost and benefits of recycling 
techniques coupled with fast neutron reactors or other types of 
reactor technologies. This cost-versus-benefit analysis would 
concentrate on the capability of these technologies to help 
alleviate the nuclear waste management challenge.
    In related research, there is a need to better understand 
the safeguards challenges in the use of fast reactors. Such 
reactors are dual use in the sense that they can burn 
transuranic material or can breed new plutonium. In the former 
operation, they could provide a needed nuclear waste management 
benefit but they are expensive. In the latter operation, they 
can pose a significant proliferation threat because they 
obviously breed more plutonium.
    Concerning lessons the United States can learn from other 
countries' nuclear waste management experience, the first 
lesson is that a fair political and sound scientific process is 
essential for selecting a permanent repository. The second 
lesson is that reprocessing as currently practiced does not 
substantially alleviate the nuclear waste management problem. 
Any type of reprocessing will require safe and secure 
repositories.
    I will also add another recommendation from my written 
remarks, is that we need better estimates on the remaining 
global reserves of uranium. It is believed based on current 
demand we have probably another 80 years worth of supply and 
maybe much greater than that. The MIT study that was just 
updated a few weeks ago makes this one of their major 
recommendations.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Ferguson follows:]

               Prepared Statement of Charles D. Ferguson

                An Assessment of the Proliferation Risks

               of Spent Fuel Reprocessing and Alternative

                  Nuclear Waste Management Strategies

    Mr. Chairman, thank you for inviting me to testify on the nuclear 
proliferation challenges of reprocessing spent nuclear fuel and 
effective ways for reducing those proliferation risks through federal 
research, development, and demonstration initiatives. In this 
testimony, I also discuss nuclear waste management programs deployed by 
other nations and examine whether those programs represent alternative 
management strategies that the U.S. Federal Government should consider.
    U.S. leadership is essential for charting a constructive and 
cooperative international course to prevent nuclear proliferation. An 
essential aspect of that leadership involves U.S. policy on 
reprocessing spent nuclear fuel. The United States has sought to 
prevent the spread of reprocessing facilities to other countries and to 
encourage countries with existing stockpiles of separated plutonium 
from reprocessing facilities to draw down those stockpiles. The 
previous administration launched the Global Nuclear Energy Partnership 
(GNEP), which proposed offering complete nuclear fuel services, 
including provision of fuel and waste management, from fuel service 
states to client states in order to discourage the latter group from 
enriching uranium or reprocessing spent nuclear fuel--activities that 
would contribute to giving these countries latent nuclear weapons 
programs. The current administration and the Congress seek to determine 
the best course for U.S. nuclear energy policy with the focus of this 
hearing on recycling or reprocessing of spent fuel and nuclear waste 
management strategies.
    Here at the start, I give a brief summary of the testimony's 
salient points:

        <bullet>  Reprocessing of the type currently practiced in a 
        handful of countries poses a significant proliferation threat 
        because of the separation of plutonium from highly radioactive 
        fission products. A thief, if he had access, could easily carry 
        away separated plutonium. Fortunately, this reprocessing is 
        confined to nuclear-armed states except for Japan. If this 
        practice spreads to other non-nuclear-weapon states the 
        consequences for national and international security could be 
        dire. Presently, the vast majority of the 31 states with 
        nuclear power programs do not have reprocessing plants.

        <bullet>  The types of reprocessing examined under GNEP do not 
        appear to offer substantial proliferation-resistant benefits, 
        according to research sponsored by the Department of Energy. 
        However, more research is needed to determine what additional 
        safeguards, if any, could provide greater assurances that 
        reprocessing methods are not misused in weapons programs and 
        whether it is possible to have assurances of timely detection 
        of a diversion of a significant quantity of plutonium or other 
        fissile material.

        <bullet>  Time is on the side of the United States. There is no 
        need to rush toward development and deployment of recycling of 
        spent nuclear fuel. Based on the foreseeable price for uranium 
        and uranium enrichment services, this practice is presently far 
        more expensive than the once-through uranium fuel cycle. 
        Nonetheless, more research is needed to determine the costs and 
        benefits of recycling techniques coupled with fast-neutron 
        reactors or other types of reactor technologies. This cost 
        versus benefit analysis would concentrate on the capability of 
        these technologies to help alleviate the nuclear waste 
        management challenge.

        <bullet>  In related research, there is a need to better 
        understand the safeguards challenges in the use of fast 
        reactors. Such reactors are dual-use in the sense that they can 
        burn transuranic material and can breed new plutonium. In the 
        former operation, they could provide a needed nuclear waste 
        management benefit. In the latter operation, they can pose a 
        serious proliferation threat.

Proliferation Risks

    Reprocessing involves extraction of plutonium and/or other fissile 
materials from spent nuclear fuel in order to recycle these materials 
into new fuel for nuclear reactors. As discussed below, many 
reprocessing techniques are available for use. Regardless of the 
particular technique, fissile material is removed from all or almost 
all of the highly radioactive fission products, which provide a 
protective barrier against theft or diversion of plutonium in spent 
nuclear fuel. Plutonium-239 is the most prevalent fissile isotope of 
plutonium in spent nuclear fuel. The greater the concentration of this 
isotope the more weapons-usable is the plutonium mixture. Weapons-grade 
plutonium typically contains greater than 90 percent plutonium-239 
whereas reactor-grade plutonium from commercial thermal-neutron 
reactors has usually less than 60 percent plutonium-239, depending on 
the characteristics of the reactor that produced the plutonium. The 
presence of non-plutonium-239 isotopes complicates production of 
nuclear weapons from the plutonium mixture, but the challenges are 
surmountable.\1\ According to an unclassified U.S. Department of Energy 
report, reactor-grade plutonium is weapons-usable.\2\
---------------------------------------------------------------------------
    \1\ Richard L. Garwin, ``Reactor-Grade Plutonium can be used to 
Make Powerful and Reliable Nuclear Weapons,'' Paper for the Council on 
Foreign Relations, August 26, 1998, available at: http://www.fas.org/
rlg/980826-pu.htm. J. Carson Mark, ``Explosive Properties of Reactor-
Grade Plutonium,'' Science and Global Security, 4, 111-128, 1993.
    \2\ Nonproliferation and Arms Control Assessment of Weapons-Usable 
Fissile Material and Excess Plutonium Disposition Alternatives, DOE/NN-
0007 (Washington, DC: U.S. Department of Energy, January 1997), pp. 38-
39.
---------------------------------------------------------------------------
    The potential proliferation threats from reprocessing of spent 
nuclear fuel are twofold. First, a state operating a reprocessing plant 
could use that technology to divert weapons-usable fissile material 
into a nuclear weapons program or alternatively it could use the skills 
learned in operating that plant to build a clandestine reprocessing 
plant to extract fissile material. Second, a non-state actor such as a 
terrorist group could seize enough fissile material produced by a 
reprocessing facility in order to make an improvised nuclear device--a 
crude, but devastating, nuclear weapon. Such a non-State group may 
obtain help from insiders at the facility. While commercial 
reprocessing facilities have typically been well-guarded, some 
facilities such as those at Sellafield in the United Kingdom and Tokai-
mura in Japan have not been able to account for several weapons' worth 
of plutonium. This lack of accountability does not mean that the 
fissile material was diverted into a State or non-State weapons 
program. The discrepancy was most likely due to plutonium caked on 
piping. But an insider could exploit such a discrepancy. For commercial 
bulk handing facilities, several tons of plutonium can be processed 
annually. Thus, if even one tenth of one percent of this material were 
accounted for, an insider could conceivably divert about one weapon's 
worth of plutonium every year.
    Location matters when determining the proliferation risk of a 
reprocessing program. That is, a commercial reprocessing plant in a 
nuclear-armed state such as France, Russia, or the United Kingdom poses 
no risk of State diversion (but could pose a risk of non-state access) 
because this type of state, by definition, already has a weapons 
program. Notably, Japan is the only non-nuclear-armed state that has 
reprocessing facilities. Japan has applied the Additional Protocol to 
its International Atomic Energy Agency safeguards, but its large 
stockpile of reactor-grade plutonium could provide a significant 
breakout capability for a weapons program. (Chinese officials and 
analysts occasionally express concern about Japan's plutonium 
stockpile.) Since the Ford and Carter Administrations, when the United 
States decided against reprocessing on proliferation and economic 
grounds, the United States has made stopping the spread of further 
reprocessing facilities especially to non-nuclear weapon states a top 
priority.
    Another top priority of U.S. policy on reprocessing is to encourage 
countries with stockpiles of separated plutonium to draw down these 
stockpiles quickly. This draw-down can be done either through consuming 
the plutonium as fuel or surrounding it with highly radioactive fission 
products. Global stockpiles of civilian plutonium are growing and now 
at about 250 metric tons--equivalent to tens of thousands of nuclear 
bombs--are comparable to the global stockpile of military plutonium. 
More than 1,000 metric tons of plutonium is contained in spent nuclear 
fuel in about thirty countries.
    While no country has used a commercial nuclear power program to 
make plutonium for nuclear weapons, certain countries have used 
research reactor programs to produce plutonium. India, notably, used a 
research reactor supplied by Canada to produce plutonium for its first 
nuclear explosive test in 1974. North Korea, similarly, has employed a 
research-type reactor to produce plutonium for its weapons program. 
Although nonproliferation efforts with Iran has focused on its uranium 
enrichment program, which could make fissile material for weapons, its 
construction of a heavy water research reactor, which when operational 
(perhaps early next decade) could produce at least one weapon's worth 
of plutonium annually, poses a latent proliferation threat. To date, 
Iran is not known to have constructed a reprocessing facility that 
would be needed to extract plutonium from this reactor's spent fuel. 
Further activities could take place in the Middle East and other 
regions. For instance, according to the U.S. Government, Syria received 
assistance from North Korea in building a plutonium production reactor. 
In September 2009, Israel bombed this construction site.
    The United States has been trying to balance the perceived need by 
many states in the Middle East for nuclear power plants versus 
restricting these states' access to enrichment and reprocessing 
technologies. Presently, as an outstanding example, the U.S.-UAE 
bilateral nuclear cooperation agreement is before the U.S. Congress. 
Proponents of this agreement tout the commitment made by the UAE to 
refrain from acquiring enrichment and reprocessing technologies and to 
rely on market mechanisms to purchase nuclear fuel. However, the last 
clause in the agreement appears to open the door for the UAE to engage 
in such activities in the future:

               Equal Terms and Conditions for Cooperation

         The Government of the United States of America confirms that 
        the fields of cooperation, terms and conditions accorded by the 
        United States of America to the United Arab Emirates for 
        cooperation in the peaceful uses of nuclear energy shall be no 
        less favorable in scope and effect than those which may be 
        accorded, from time to time, to any other non-nuclear-weapon 
        State in the Middle East in a peaceful nuclear cooperation 
        agreement. If this is, at any time, not the case, at the 
        request of the Government of the United Arab Emirates the 
        Government of the United States of America will provide full 
        details of the improved terms agreed with another non-nuclear-
        weapon State in the Middle East, to the extent consistent with 
        its national legislation and regulations and any relevant 
        agreements with such other non-nuclear-weapon State, and if 
        requested by the Government of the United Arab Emirates, will 
        consult with the Government of the United Arab Emirates 
        regarding the possibility of amending this Agreement so that 
        the position described above is restored.\3\
---------------------------------------------------------------------------
    \3\ Agreement for Cooperation between the Government of the United 
States of America and the Government of the United Arab Emirates 
Concerning Peaceful Uses of Nuclear Energy, May 21, 2009.

    Such a request for amendment could be around the corner because 
Jordan is seeking to conclude a bilateral nuclear cooperation agreement 
with the United States, and it has expressed interest in keeping open 
the option to enrich uranium. Jordan has discovered large quantities of 
indigenous uranium and may want to ``add value'' to that uranium 
through enrichment. Jordan or any other Middle Eastern state has not 
yet expressed interest in reprocessing. U.S. leadership and practice in 
this issue will serve as an example for other states interested in 
---------------------------------------------------------------------------
acquiring new nuclear power programs.

Proliferation-Resistant Reprocessing

    Can reprocessing be made more proliferation-resistant? 
``Proliferation resistance is that characteristic of a nuclear energy 
system that impedes the diversion or undeclared production of nuclear 
material or misuse of technology by the host state seeking to acquire 
nuclear weapons or other nuclear explosive devices.'' \4\ No nuclear 
energy system is proliferation proof because nuclear technologies are 
dual-use. Enrichment and reprocessing can be used either for peaceful 
or military purposes. However, through a defense-in-depth approach, 
greater proliferation-resistance may be achieved. Both intrinsic 
features (for example, physical and engineering characteristics of a 
nuclear technology) and extrinsic features (for example, safeguards and 
physical barriers) complement each other to deter misuse of nuclear 
technologies and materials in weapons programs. The potential threats 
that proliferation-resistance tries to guard against are:
---------------------------------------------------------------------------
    \4\ Office of Nonproliferation and International Security, A 
Nonproliferation Impact Assessment for the Global Nuclear Energy 
Programmatic Alternatives, National Nuclear Security Administration, 
U.S. Department of Energy, Draft, December 2008, p. 26.

---------------------------------------------------------------------------
        <bullet>  ``Concealed diversion of declared materials;

        <bullet>  Concealed misuse of declared facilities;

        <bullet>  Overt misuse of facilities or diversion of declared 
        materials; and

        <bullet>  Clandestine declared facilities.'' \5\
---------------------------------------------------------------------------
    \5\ Ibid, p. 28.

    For each of these threats, a detailed proliferation pathway 
analysis can be done in order to measure the proliferation risk and to 
determine the needed, if any, additional safeguards. The U.S. 
Department of Energy has sponsored such analysis for proposed 
reprocessing techniques considered under GNEP.\6\ These techniques 
include UREX+, COEX, NUEX, and Pyroprocessing, and they have been 
compared to the PUREX technique, which is the commercially used method. 
PUREX separates plutonium and uranium from highly radioactive fission 
products. It is an aqueous separations process and thus generates 
sizable amounts of liquid radioactive waste. UREX+, COEX, and NUEX are 
also aqueous processes. UREX+ is a suite of chemical processes in which 
pure plutonium is not separated but different product streams can be 
produced depending on the reactor fuel requirements. COEX and NUEX are 
related processes. COEX co-extracts uranium and plutonium (and possibly 
neptunium) into one recycling stream; another stream contains pure 
uranium, which can be recycled; and a final stream contains fission 
products. NUEX separates into three streams: uranium, transuranics 
(including plutonium), and fission products. Pyroprocessing uses 
electro-refining techniques to extract plutonium in combination with 
other transuranic elements, some of the rare Earth fission products, 
and uranium. This fuel mixture would be intended for use in fast-
neutron reactors, which have yet to be proven commercially viable.
---------------------------------------------------------------------------
    \6\ See, for example, many of the references cited in Office of 
Nonproliferation and International Security, A Nonproliferation Impact 
Assessment for the Global Nuclear Energy Programmatic Alternatives, 
National Nuclear Security Administration, U.S. Department of Energy, 
Draft, December 2008.
---------------------------------------------------------------------------
    Can these reprocessing techniques meet the highest proliferation-
resistance standard of the ``spent fuel standard'' in which plutonium 
in its final form should be as hard to acquire, process, and use in 
weapons as is plutonium embedded in spent fuel?\7\ The brief answer is 
``no'' because the act of separating most or all of the highly 
radioactive fission products makes the fuel product less protected than 
the intrinsic protection provided by spent fuel. In fact, Dr. E.D. 
Collins of Oak Ridge National Laboratory has shown that the radiation 
emission from these reprocessed products is 100 times less than the 
spent fuel standard.\8\ In other words, a thief could carry these 
products and not suffer a lethal radiation dose whereas the same thief 
would experience a lethal dose in less than one hour of exposure to 
plutonium surrounded by highly radioactive fission products. But these 
methods may still be worth pursuing depending on a detailed systems 
analysis factoring in security risks on site and during transportation, 
the final disposition of the material once it has been recycled as 
fuel, as well as the costs and benefits of nuclear waste management.
---------------------------------------------------------------------------
    \7\ Committee on International Security and Arms Control, National 
Academy of Sciences, Management and Disposition of Excess Weapons 
Plutonium, Washington, DC: National Academy Press, 1994.
    \8\ E.D. Collins, Oak Ridge National Laboratory, ``Closing the Fuel 
Cycle Can Extend the Lifetime of the High-Level Waste Repository,'' 
American Nuclear Society 2005 Winter Meeting, November 17, 2005, p. 13.
---------------------------------------------------------------------------
    According to DOE's draft nonproliferation assessment of GNEP, ``for 
a state with pre-existing PUREX or equivalent capability (or more 
broadly the capability to design and operate a reprocessing plant of 
this complexity), there is minimal proliferation resistance to be found 
by [using the examined reprocessing techniques] considering the 
potential for diversion, misuse, and breakout scenarios.'' \9\ 
Moreover, the DOE assessment points out that these techniques pose 
additional safeguards challenges. For example, it is difficult to do an 
accurate accounting of the amount of plutonium in a bulk handling 
reprocessing facility that produces plutonium mixed with other 
transuranic elements.\10\ This challenge raises the probability of 
diversion of plutonium by insiders.\11\
---------------------------------------------------------------------------
    \9\ A Nonproliferation Impact Assessment for the Global Nuclear 
Energy Programmatic Alternatives, p. 69.
    \10\ J.E. Stewart et al., ``Measurement and Accounting of the Minor 
Actinides Produced in Nuclear Power Reactors,'' Los Alamos National 
Laboratory, LA-13054-MS, January 1996, p. 21.
    \11\ Ed Lyman, ``U.S. Nuclear Fuel Reprocessing Initiative: DOE 
Research Shows Technology Does Not Reduce Risks of Nuclear 
Proliferation and Terrorism,'' Fact Sheet, Union of Concerned 
Scientists, February 2006.
---------------------------------------------------------------------------
    Another set of considerations is the choice of reactors to burn up 
the transuranic elements. The DOE draft assessment examined several 
choices including light water reactors, heavy water reactors, high 
temperature gas reactors, and fast-neutron reactors. Only the fast-
neutron reactors offered the most benefits in terms of net consumption 
of transuranic material. This material would have to be recycled 
multiple times in fast reactors to consume almost all of it. This is 
called a full actinide recycle in contrast to a partial actinide 
recycle with the other reactor methods. The benefit from a waste 
management perspective is that the amount of time required for spent 
fuel's radiotoxicity to reduce to that of natural uranium goes from 
more than tens of thousands of years for partial actinide recycle to 
about 400 years for the full actinide recycle.
    The challenge of the full actinide route, however, is that fast 
reactors can relatively easily be changed from a burner mode to a 
breeder mode. That is, these reactors can breed more plutonium by the 
insertion of uranium target material. The perceived need for breeder 
reactors has driven a few countries such as France, India, Japan, and 
Russia to develop reprocessing programs.

Alternative Nuclear Waste Management Programs of Other Nations

    Has reprocessing programs, to date, helped certain nations solve 
their nuclear waste problems? The short answer is, ``no.'' Before 
explicating that further, it is worth briefly examining why these 
countries began these programs. About fifty years ago, when the 
commercial nuclear industry was just starting, concerns were raised 
about the availability of enough natural uranium to fuel the thousands 
of reactors that were anticipated. Natural uranium contains 0.71 
percent uranium-235, 99.28 percent uranium-238, and less than 0.1 
percent uranium-234. Uranium-235 is the fissile isotope and thus is 
needed for sustaining a chain reaction. However, uranium-238 is a 
fertile isotope and can be used to breed plutonium-239, a fissile 
isotope that does not occur naturally. Thus, if uranium-238 can be 
transformed into plutonium-239, the available fissile material could be 
expanded by more than one hundred times, in principle. This observation 
motivated several countries, including the United States, to pursue 
reprocessing.
    A related motivation was the desire for better energy security and 
thus less dependence on outside supplies of uranium. France and Japan, 
in particular, as countries with limited uranium resources, developed 
reprocessing plants in order to try to alleviate their dependency on 
external sources of uranium. They had invested in these plants before 
the realization that the world would not run out of uranium soon. By 
the late 1970s, two developments happened that alleviated the perceived 
pending shortfall. First, the pace of proposed nuclear power plant 
deployments dramatically slowed. There were plans at that time for more 
than 1,000 large reactors (of about 1,000 MWe power rating) by 2000, 
but even before the Three Mile Island accident in 1979, the number of 
reactor orders in the United States and other countries slackened off 
although France and Japan launched a reactor building boom in the 1970s 
that lasted through the 1980s. By 2000, there was only the equivalent 
of about 400 reactors of 1,000 MWe size. Second, uranium prospecting 
identified enough proven reserves to supply the present nuclear power 
demand for several decades to come.
    Because there is plentiful uranium at relatively low prices and the 
cost of uranium enrichment has decreased, the cost of the once-through 
uranium cycle is significantly less than the cost of reprocessing. 
However, because fuel costs are a relatively small portion of the total 
costs of a nuclear power plant, reprocessing adds a relatively small 
amount to the total cost of electricity. In France, the added cost is 
almost six percent, and in Japan about ten percent. Nonetheless, in 
competitive utility markets in which consumers have choices, most 
countries have not chosen the reprocessing route because of the 
significantly greater fuel costs. France and Japan have adopted 
government policies in favor of reprocessing and also have sunk many 
billions of dollars into their reprocessing facilities. The French 
government owns and controls the electric utility Electricite de France 
(EDF) and the nuclear industry Areva. Despite this extensive government 
control, a 2000 French government study determined that if France stops 
reprocessing, it would save $4 to $5 billion over the remaining life of 
its reactor fleet.\12\ EDF assigns a negative value to recycled 
plutonium.
---------------------------------------------------------------------------
    \12\ Economic Forecast Study of the Nuclear Option (Planning 
Commission, Government of France, 2000), section 3.4.
---------------------------------------------------------------------------
    While France's La Hague plant is operating, Japan is still 
struggling to start up its Rokkasho plant, which is largely based on 
the French design. Thus, the costs of the Japanese plant keep climbing 
and will likely be more than $20 billion. While the Japanese government 
wants to fuel up to one-third of its more than 50 reactors with 
plutonium-based mixed oxide fuel, local governments tend to look 
unfavorably on this proposal.
    Only a few other nations are involved with reprocessing. Russia and 
the United Kingdom operate commercial-scale facilities. China and India 
are interested in heading down this path. But the United Kingdom is 
moving toward imminent shut down of its reprocessing mainly due to lack 
of customers. Moreover, the clean up and decommissioning costs are 
projected to be many billions of dollars. Russia and France also lack 
enough customers to keep their reprocessing plants at full capacity. In 
early April, I visited the French La Hague plant and was told that it 
is only operating at about half capacity. France only uses mixed oxide 
fuel in 20 of its 58 light water reactors. Presently, less than 10 
percent of the world's commercial nuclear power plants burn MOX fuel. 
As stated earlier, the demand for MOX fuel has not kept up with the 
stockpiled quantities of plutonium.
    With respect to nuclear waste management, an important point is 
that reprocessing, as currently practiced, does little or nothing to 
alleviate this management problem. For example, France practices a 
once-through recycling in which plutonium is separated once, made into 
MOX fuel, and the spent fuel containing this MOX is not usually 
recycled once (although France has done some limited recycling of MOX 
spent fuel). The MOX spent fuel is stored pending the further 
development and commercialization of fast reactors. But France admits 
that this full deployment of a fleet of fast reactors is projected to 
take place at the earliest by mid-century. France will shut down later 
this year its only fast reactor, the prototype Phenix. Perhaps around 
2020, France may have constructed another fast reactor, but the high 
costs of these reactors have been prohibitive. In effect, France has 
shifted its nuclear waste problem from the power plants to the 
reprocessing plant.
    France's practice of transporting plutonium hundreds of miles from 
the La Hague to the MOX plant at Marcoule poses a security risk. While 
there has never been a theft of plutonium or a major accident during 
the hundreds of trips to date, each shipment contains many weapons' 
worth of plutonium. Thus, just one theft of a shipment could be an 
international disaster.
    No country has yet to open a permanent repository. But the country 
with the most promising record of accomplishment in this area is 
Sweden. A couple of weeks ago, Sweden announced the selection of its 
repository site but admits that the earliest the site will accept spent 
fuel is 2023. Sweden had carefully evaluated three different sites and 
obtained widespread community and local government involvement in the 
decision-making process. France touts the benefits of the volume 
reduction of recycling in which highly radioactive fission products are 
formed into a glass-like compound, which is now stored at an interim 
storage site. By weight percentage, spent fuel typically consists of 
95.6 percent uranium (with most of that being uranium-238), three 
percent stable or short-lived radioactive fission products, 0.3 percent 
cesium and strontium (the primary sources of high-level radioactive 
waste over a few hundred years), 0.1 percent long-lived iodine and 
technetium, 0.1 percent long-lived actinides (heavy radioactive 
elements), and 0.9 percent plutonium. But the critical physical factor 
for a repository is the heat load. For the first several hundred years 
of a repository the most heat emitting elements are the highly 
radioactive fission products. The benefit of a fast reactor recycling 
program could be the reduction or near elimination of the longer-lived 
transuranic elements that are the major heat producing elements beyond 
several hundred years.
    Other countries may venture into reprocessing. Therefore, it is 
imperative for the United States to re-evaluate its policies and 
redouble its efforts to prevent the further spread of reprocessing 
plants to non-nuclear-weapon states. In particular, the Republic of 
Korea is facing a crisis in the overcrowded conditions in the spent 
fuel pools at its power plants. One option is to remove older spent 
fuel and place it in dry storage casks, but the ROK government believes 
this option may cost too much because of the precedent set by the 
exorbitantly high price paid for a low level waste disposal facility. 
Another option is for the ROK to reprocess spent fuel. While this will 
provide significant volume reduction in the waste, it will only defer 
the problem to storage of MOX spent fuel, similar to the problem faced 
by France. This option will run counter to the agreement the ROK signed 
with North Korea in the early 1990s for both states to prohibit 
reprocessing or enrichment on the Korean Peninsula. A related option is 
to ship spent fuel to La Hague, but a security question is whether to 
ship plutonium back to the ROK. France would require shipment of the 
high level waste back to the ROK. Thus, the ROK will need a high level 
waste disposal facility. The main reason I raise this ROK issue at 
length is that the ROK and the United States have recently begun talks 
on the renewal of their peaceful nuclear cooperation agreement, which 
will expire in 2014. The United States has consent rights on ROK spent 
fuel because either it was produced with U.S.-supplied fresh fuel or 
U.S.-origin reactor systems. The ROK is seeking to have future spent 
fuel not subject to such consent rights by purchasing fresh fuel from 
other suppliers and by developing reactor systems that do not have 
critical components that are U.S.-origin or derived from U.S.-origin 
systems. The bottom line is that the United States is steadily losing 
its leverage with the ROK and other countries because of declining U.S. 
leadership in nuclear power plant systems and nuclear waste management.
    Concerning lessons the United States can learn from other 
countries' nuclear waste management experience, the first lesson is 
that a fair political and sound scientific process is essential for 
selecting a permanent repository. Sweden demonstrates the effectiveness 
of examining multiple sites and gaining buy-in from the public and 
local governments. The second lesson is that reprocessing, as currently 
practiced, does not substantially alleviate the nuclear waste 
management problem. However, more research is needed to determine the 
costs and benefits of fast reactors for reducing transuranic waste. Any 
type of reprocessing will require safe and secure waste repositories.
    While the United States investigates the costs and benefits of 
various recycling proposals through a research program, it has an 
opportunity now to exercise leadership in two waste management areas. 
First, as envisioned in GNEP, the United States should offer fuel 
leasing services. As part of those services, it should offer to take 
back spent fuel from the client countries. (Russia is offering this 
service to Iran's Bushehr reactor.) This spent fuel does not 
necessarily have to be sent to the United States. It could be sent to a 
third party country or location that could earn money for the spent 
fuel storage rental service. Spent fuel can be safely and securely 
stored in dry storage casks for up to 100 years. Long before this time 
ends, a research program will most likely determine effective means of 
waste management. The spent fuel leasing could be coupled to the second 
area where the United States can play a leadership role. That is, the 
United States can offer technical expertise and political support in 
helping to establish regional spent fuel repositories. A regional 
storage system would be especially helpful for countries with smaller 
nuclear power programs.

Recommendations

        <bullet>  Continue to discourage separation of plutonium from 
        spent nuclear fuel.

        <bullet>  Limit the spread of reprocessing technologies to non-
        nuclear weapon states.

        <bullet>  Draw down the massive stockpile of civilian 
        plutonium.

        <bullet>  Support a research program to assess the costs and 
        benefits of various reprocessing technologies with attention 
        focused on proliferation-resistance, safeguards, and nuclear 
        waste management. Compare the costs and benefits of 
        reprocessing to enrichment, factoring in the proliferation 
        risks of both technologies.

        <bullet>  Increase funding for safeguards research.

        <bullet>  Promote safe and secure storage of spent fuel until 
        the time when reprocessing may become economically attractive.

        <bullet>  Evaluate multiple sites for permanent waste 
        repositories based on political fairness and sound scientific 
        assessments. Obtain buy-in from the public and local 
        governments.

        <bullet>  Use secure interim spent fuel storage employing dry 
        storage casks to relieve build up on spent fuel pools.

        <bullet>  Provide fuel leasing services that would include take 
        back of spent fuel to either the fuel supplier state or a third 
        party.

        <bullet>  Develop regional spent fuel storage facilities.

        <bullet>  Obtain better estimates on the remaining global 
        reserves of uranium.

        <bullet>  Provide research support for developing more 
        efficient nuclear power plants that would produce more 
        electrical power per thermal power than today's fleet of 
        reactors. Similarly, research more effective ways to make more 
        efficient use of uranium fuel and reduce the amounts of 
        plutonium-239 produced.

                   Biography for Charles D. Ferguson

    Dr. Charles D. Ferguson is the Philip D. Reed senior fellow for 
science and technology at the Council on Foreign Relations (CFR). He is 
also an adjunct professor in the security studies program at Georgetown 
University, where he teaches a graduate-level course titled ``Nuclear 
Technologies and Security,'' and an adjunct lecturer in the national 
security studies program at the Johns Hopkins University, where he 
teaches a graduate-level course titled ``Weapons of Mass Destruction 
Technologies.'' His areas of expertise include arms control, climate 
change, energy policy, and nuclear and radiological terrorism. At CFR, 
he specializes in analyzing nuclear energy, nuclear nonproliferation, 
and the prevention of nuclear terrorism. He has written the Council 
Special Report Nuclear Energy: Balancing Benefits and Risks, published 
in April 2007. Most recently, he served as the project director for the 
CFR-sponsored Independent Task Force on U.S. Nuclear Weapons Policy, 
chaired by William Perry and Brent Scowcroft. The task force report was 
published in April 2009.
    Prior to arriving at CFR in September 2004, Dr. Ferguson worked as 
the scientist-in-residence at the Monterey Institute's Center for 
Nonproliferation Studies (CNS). At CNS, he co-authored (with William 
Potter) the book The Four Faces of Nuclear Terrorism (Routledge, 2005). 
He was also the lead author of the award-winning report Commercial 
Radioactive Sources: Surveying the Security Risks, which was published 
in January 2003 and was one of the first post-9/11 reports to assess 
the radiological dispersal device, or ``dirty bomb,'' threat. This 
report won the 2003 Robert S. Landauer Lecture Award from the Health 
Physics Society.
    Dr. Ferguson has consulted with the International Atomic Energy 
Agency, the Los Alamos National Laboratory, Sandia National 
Laboratories and the National Nuclear Security Administration. He 
served as a physical scientist in the Office of the Senior Coordinator 
for Nuclear Safety at the U.S. Department of State, where he helped 
develop U.S. Government policies on nuclear safety and security issues. 
He has also worked on nuclear proliferation and arms control issues as 
a senior research analyst and director of the nuclear policy project at 
the Federation of American Scientists.
    After graduating with distinction from the United States Naval 
Academy, he served as an officer on a fleet ballistic missile submarine 
and studied nuclear engineering at the Naval Nuclear Power School. Dr. 
Ferguson has written numerous articles on energy policy, missile 
defense, nuclear arms control, nuclear energy, nuclear proliferation, 
and nuclear terrorism. These publications have appeared in the Bulletin 
of the Atomic Scientists, the Christian Science Monitor, Issues in 
Science and Technology, the International Herald Tribune, the Los 
Angeles Times, the National Interest online, the Wall Street Journal, 
and the Washington Post. He has also authored or co-authored several 
peer-reviewed scientific articles and published in top physics 
journals. He holds a Ph.D. in physics from Boston University.

                               Discussion

    Chairman Gordon. Thank you. There were lots of good points 
made. The survey of the available uranium really is something 
we should try to do.

        Discouraging Weapons Proliferation in Nuclear Processing

    Well, first let me thank the witnesses for speaking in 
English. I was a little concerned that some of us wouldn't 
understand what you were talking about but you dumbed it down 
for us, and I thank you for that. I would like to also ask if 
you would submit to the Committee your suggestions for an R&D 
roadmap. I know it was somewhat mentioned but I would like what 
we should be recommending to the Department of Energy, and 
while you are doing that, what you think should be the federal 
role versus the private role, and before I get into my question 
that I posed earlier, I would like to not start a fist fight 
but I would like to see whether there is anyone who disagrees 
with Dr. Hanson's, you know, very specific statement that there 
is no such thing or will be no such thing as a proliferation-
proof reprocessing. Does anyone disagree with that? Okay, Ms. 
Price.
    Ms. Price. I guess what I would say to put it into context 
is the question, and I think Dr. Ferguson touched on it, is how 
you safeguard the treatment of plutonium through the process. 
And I would submit that the sodium-cooled reactor with the 
electro-metallurgical processing doesn't separate plutonium. 
All of the transuranics are burned in the reactor, and that is 
one way to help safeguard. Now, an absolute statement that 
there is no absolutely no chance may be an impossible standard, 
but it is not the same type of concern, if you will, if the 
plutonium is not separated out on its own and there are other 
methods where in fact it is consumed without that separation 
feature.
    Chairman Gordon. Yes, sir.
    Dr. Ferguson. Mr. Chairman, very briefly. I think it was 
four years ago in 2005 that the American Physical Society--and 
Dr. Ehlers and I are members of APS--they published a study on 
safeguard challenges and they recommended we devote more to R&D 
on safeguards, and they clearly stated in the beginning of the 
report there is no such thing as proliferation-proof 
technologies. These things are dual use. You can make them ever 
more proliferation resistant if we are willing to spend the 
resources to do it.
    Chairman Gordon. So it can be significantly reduced. Would 
that be fair to say, but not eliminated?
    Dr. Ferguson. Yes, sir. That is true. We can't eliminate 
them.

              Existing Versus Next Generation Technologies

    Chairman Gordon. Okay. So let us get back to my earlier 
question. In terms of something we should be doing in this 
country, do we move forward with existing reprocessing 
technologies or should we wait for that next generation, and do 
we have the storage capacity to wait, which is somewhat--how 
long does it take us to get there, and the cost differentials. 
Who would like to start with that? Yes, sir.
    Dr. Peters. I can start.
    Chairman Gordon. Dr. Peters.
    Dr. Peters. So as I said in my opening statement, I don't 
think we should proceed with existing technologies, and let me 
expand on why I think that. The DOE program over the course of 
the last 10 years has done a lot of analysis, systems analysis, 
I will call it, of the fuel cycle and thinking about whether we 
should go with recycling in LWRs or bypass that and go directly 
to fast reactors. So we have looked at the options, and in the 
end I am going to tell you that we need to continue to evaluate 
the options, but as we have done that we have seen there is 
some benefit, as Alan alluded to, with going to existing 
technologies and recycling and thermal reactors. You get volume 
reduction. You do get reduction in some of the radiotoxic 
constituents as well as the heat-generating radionuclides. But 
it is only part of the way there, and if you want to go to the 
full benefit you need to go to full closure of the fuel cycle. 
And even the countries that are currently doing like France, 
Japan, Russia that are currently practicing aqueous 
reprocessing using PUREX-like technologies and perhaps 
recycling and thermal reactors, ultimately their plan is to go 
to fast reactors and full closure of the fuel cycle. So the 
question really on the table is, do we leapfrog or do we take a 
more evolutionary path? And I would put to you that because we 
have not currently put significant investment in the United 
States that we should seriously consider the leapfrog approach, 
meaning that we develop advanced technologies as we do that in 
the lab. We have done a lot of that in the lab already, do some 
additional science-based work, demonstrate those at a 
reasonable engineering scale and then go build them at the 
commercial scale.
    One other point I will make about storage, so the current 
spent fuel inventory is stored, spread across multiple sites. 
One hundred and twenty-one sites, 39 states have currently 
stored spent fuel at reactor sites. I won't get into whether it 
is better to have centralized storage or storage at different 
sites but it is safe and secure as it sits right now. It is not 
a permanent solution, so we need to move in a measured path.
    Chairman Gordon. I don't have much time left, so is there 
anyone else that wants to address that? I thought you probably 
would, Dr. Hanson.
    Dr. Hanson. We have at Areva over 40 years of research 
built into our existing processes and we have developed a 
future process we call COEX, which does not separate out pure 
plutonium. It is a step in the right direction.
    With regard to the leapfrog or evolution, I would like to 
use an analogy. We are embarking on a nuclear renaissance, and 
the reactors that are being built around the world and are 
going to be built in the United States are called Generation 
Three Plus. They are evolutionary reactors. I cannot find a 
single utility anywhere in the world that is prepared to 
leapfrog to a fast reactor today. The situation is identical 
with recycling. We have evolutionary technologies which we can 
use today and we need to research a lot more before we can do 
the leapfrog. The problem with leaping is you don't know where 
you are going to land, and instead of landing on the lily pad 
you may end up in the water and drown because your technology 
doesn't survive.
    Chairman Gordon. I don't want to abuse my time, so do you 
want to have a rebuttal there, Ms. Price?
    Ms. Price. I guess I would echo Dr. Peters' comments first 
and the money that we would have to invest to build the 
infrastructure for reprocessing could be better spent in 
working on the technology roadmap for developing the recycling. 
The roadmap that we developed, and this has been developed in 
conjunction with many of the national labs, would say that you 
could develop recycling over the course of 15 to 20 years, and 
there is programmatic research that is laid out there.
    One of the big advantages we haven't talked about but Dr. 
Ferguson mentioned on the uranium supply balance is, recycling, 
full recycling allows you to extract about 90 percent of the 
available energy that is inherent in uranium and reduce the 
waste volumes by about 98 percent, so not only are you having a 
better overall conservation with respect to an important 
natural resource, you have got completely different 
characteristics that you can then consider in evaluating your 
long-term storage.

                 Time Frames for Storage and Recycling

    Chairman Gordon. Thank you. You know, one of the 
unfortunate things about this format is that we don't get to go 
deeper, and we have some roundtables, and I think we will 
probably have more of these, where we can really talk. So just 
in conclusion, very quickly, I want each of you to give me two 
numbers. The first number is how do you think that we can 
continue to store at existing locations with dry casks wherever 
it might be, and the second is, how long do you think it would 
take to get that next generation recycling? Dr. Peters, just 
two numbers real quickly across everybody.
    Dr. Peters. We can store until the end of the century if 
you want to but I would argue commercial by 2050.
    Chairman Gordon. Dr. Hanson?
    Dr. Hanson. We can continue to store virtually 
indefinitely. It is safe and secure and there are no 
restrictions on the ability to supply storage, so that is not a 
concern.
    Chairman Gordon. On site. I am talking about on site.
    Dr. Hanson. On site, yes, even on site. I wouldn't 
recommend doing that but nonetheless it is possible. Your 
second request with regard to the number of years, to do a 
change in the nuclear industry, 40 years----
    Chairman Gordon. Just two numbers. We just need two 
numbers.
    Dr. Hanson. Forty years.
    Chairman Gordon. Okay. Ms. Price?
    Ms. Price. There is sufficient capacity on the nuclear 
sites to store them for as long as the nuclear plants are 
running, so I don't have any issues with that. And I would say 
15 to 20 years and you can have a sodium-cooled reactor in 
service.
    Chairman Gordon. And----
    Dr. Ferguson. And I echo Dr. Peters' comments. I think end 
of the century on site with dry cask storage and you can 
probably get this up and running mid century in terms of 
commercial processes if we need to.
    Chairman Gordon. Thank you for your indulgence. Dr. Ehlers 
is recognized.

                 The Merits of Different Reactor Types

    Mr. Ehlers. Thank you, Mr. Chairman.
    First of all, we will go to you, Ms. Price. You talked 
about sodium-cooled reactors, and I have just been out of the 
field for too long. Where does that stand now? The last time I 
looked at it, they didn't look very promising. What has 
developed there? Are they going to be available commercially? 
Are they really an answer or not?
    Ms. Price. Well, to start off, as you know, the sodium-
cooled reactor has been around since the 1950s. More recently 
in about 1983, we began developing a sodium-cooled reactor and 
it, in fact, continued with development with government funding 
through the Advanced Liquid Metal Reactor Program that was 
funded through 1995, and so in fact there have been quite a few 
developments in the fast reactor technology since the early 
1950s when it was first introduced. At that time in between the 
1995 and the 2001 time frame, the NRC actually reviewed the 
conceptual design work for the advanced--for the sodium-cooled 
reactor and found that there were no significant safety 
concerns that would prevent moving ahead to taking the next 
step. There is still quite a bit of research and development 
work and demonstration work to be done, but we believe that the 
proof of concept is there and that in fact the reactor with the 
development path would be successful.
    Mr. Ehlers. You also mentioned water-moderated reactors and 
that they are both functional and not detrimental to the other. 
They improve the total fuel cycle. I am just curious, are there 
certain areas of our country or certain areas of the world that 
are better for either or both of these reactors or are they 
universally applicable?
    Ms. Price. The way we sort of think about it is like the 
analogy, to borrow from my testimony, of oil and how do you 
extract all of the value in a barrel of oil. A lot of the oil 
is going to be used to fund the gasoline engine but there is 
going to be some oil that is going to be used to make diesel 
for use in diesel cars, and the question is, which is better, 
an internal combustion engine or a diesel engine? And the 
answer is, they have their own applicability and so there are 
going to be situations where they are very complementary to 
each other and they are not at all substitutes. What I would 
say in the context of an overall nuclear balance is that the 
view of using a fast reactor to address the transuranics would 
require about a third of your nuclear installed base, 30 
percent of the megawatts that you would generate via fast 
reactor and the balance of it be a light water reactor and that 
would be sort of a system that would be in balance. All of the 
transuranics and all of the waste product in the used fuel then 
could be sent over to the fast reactor and then you would not 
be building up any more spent fuel.
    Mr. Ehlers. Okay. Thank you.

                        Fuel Reprocessing Costs

    Dr. Hanson, in Dr. Ferguson's testimony he states that most 
countries have not chosen the reprocessing route because of the 
significantly greater fuel cost. That doesn't seem quite to 
jive with what you said. What do you think about that 
statement, or what is your reaction?
    Dr. Hanson. Our experience in Europe is that the additional 
cost for doing recycling approximates five to six percent of 
the costs of producing electricity. It is not a large amount. I 
don't think people have foregone recycling because of the cost 
issue. You need to have a fairly significant, sizable industry 
in order to justify doing recycling. If you have a small 
situation with only a few reactors, it is very hard to justify 
it. And most countries are not going to be prepared to make the 
massive up-front investment in building a facility as long as 
they can provide the service from somebody else like Areva or 
some day, the United States.
    Mr. Ehlers. Are you suggesting that Areva or someone else 
would provide the service in various parts of the world and all 
the waste would be shipped to those areas?
    Dr. Hanson. That is in fact what we are doing today. We are 
doing recycling for Japan, for Switzerland, for Belgium, a 
number of other countries, Italy now, and we provide the 
service. We either return the plutonium to them as MOX fuel or 
else we give it to another reactor, and only the high-level 
waste goes back to the country from which the fuel came.
    Mr. Ehlers. And are you encountering any problems from 
people who are objecting to a plant being in the area or waste 
being transported through their particular country or their 
part of the country?
    Dr. Hanson. The only place where that has been presented a 
significant problem has been in Germany, where the step away 
from nuclear and the Green Party has made it a big issue, and 
they have tried to impede transports, but the transports are 
continuing as we speak, mainly of returning waste today.
    Mr. Ehlers. Thank you. Thank you very much. I yield back.
    Chairman Gordon. Thank you, Dr. Ehlers, right on time, and 
the prompt Ms. Brooks is recognized, or did she--Ms. Edwards. 
I'm sorry. There she is. Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman, and you know, when 
you were asking earlier, Mr. Chairman, whether there were any 
folks who might disagree, I thought you were talking about up 
here on the panel.

                      More Proliferation Concerns

    I want to ask you a couple of questions, and one has to do 
with a letter, and I don't know if you are aware of it, that 
was sent to President Obama in December from about 35 
organizations from around this country raising serious concerns 
about both reprocessing and recycling, and in particular they 
point to the reprocessing that is done in France, the U.K., 
Japan and Russia, 250 metric tons of separated plutonium, which 
they say is enough to make about 30,000 nuclear weapons. And 
according to a GAO report in 2008, reprocessing irradiated fuel 
would pose a greater risk of proliferation in comparison with 
direct disposal in a geologic repository, and so I wonder if 
you have some of those same concerns. And I understand that the 
Council on Foreign Relations has raised exactly that concern, 
and yet Dr. Hanson, I think that you have dismissed that as 
both a proliferation concern and a security concern.
    Dr. Hanson. I think that question is directed to me. I 
would like to go back to what I said in my testimony. Areva 
does not believe nor do I personally believe, I don't think 
anybody on this panel believes that we ought to have 
reprocessing and recycling taking place in every country on the 
face of the Earth. This would not be a good thing to do. 
However, the proliferation risk if we do it in the United 
States is vanishingly small, vanishingly small. If we can 
protect all of the nuclear weapons and all the nuclear material 
we have in this country, then we can easily protect the 
material that would be in commerce from doing recycling. So I 
don't think it is a risk in the United States at all. Around 
the world in other places, yes, it could be a risk.
    Ms. Edwards. And is Areva interested in building a 
reprocessing plant here in the United States?
    Dr. Hanson. At the Carnegie Endowment conference held 
earlier this year, our Chairwoman, Anne Lauvergeon, made a 
statement to that nonproliferation conference. She said there 
were only two countries in the world to which Areva would be 
prepared to export our technology. One of them is the United 
States and the second one is China.

                            Financial Costs

    Ms. Edwards. Thank you. And then to any of our other 
panelists, some concerns have been raised by the Union of 
Concerned Scientists with regard to reprocessing spent nuclear 
waste, and among them they cite an increased volume of 
radioactive waste by a factor of seven, significantly increased 
by more than a factor of six the volume of low-level waste 
requiring disposal in a licensed low-level waste facility, and 
a great increase by a factor of 160 in the volume of greater 
than class C low-level waste which contains significant amounts 
of long-lived and highly radiotoxic isotopes such as plutonium 
and americium. There is no U.S. facility currently as we know 
licensed to accept this waste. And they also cite the reduction 
in the volume of high-level waste requiring disposal in a deep 
geologic repository which we also don't have, less than 25 
percent. And so I guess my question is, is the investment that 
we are talking about, literally hundreds of billions of dollars 
that would be required for reprocessing, given the security 
questions, given the lack of a geologic repository for the 
fuel, is this really worth our investment or should we be 
making more investments particularly in sources of energy that 
actually are going to get us someplace else without the 
attendant costs? I will just leave that open to the panel.
    Dr. Peters. Well, I guess first I would say it seems to me 
like we need to be investing in a lot of different energy 
sources, but to me nuclear is inescapable in terms of 
contribution to baseload. I will say that first. Second, as you 
well know, to the comments by Union of Concerned Scientists, 
all the waste that they are referring to exists. We have to 
deal with greater than class C low-level waste and high-level 
waste already. Is there increase--the high-level waste volume 
reduction is actually a bit more than significant than they 
say, and I think Alan alluded to that in his testimony. There 
would be an increase in low-level waste, small increase, and 
also probably a small increase in greater than class C, but it 
is a tradeoff, and I would argue when you put all this together 
and think about sustainability, reducing the overall burden on 
high-level waste, which is the most toxic, and all the other 
components, particularly in an era where we are hoping nuclear 
will grow, it makes sense to go to recycling because we are 
going to have to develop the sites anyway. The nice thing about 
recycling also is you can tailor the waste streams and perhaps 
look at different disposal settings for the different waste 
streams, which is much different than the way we think about 
the problem right now.
    Ms. Edwards. Thank you. My time has expired, and I probably 
will have some questions----
    Chairman Gordon. Well, I think Dr. Ferguson wants to 
probably----
    Ms. Edwards. Thank you.
    Chairman Gordon. Let Dr. Ferguson finish.
    Dr. Ferguson. Thank you, Congresswoman Edwards, for raising 
those important points. And if we look at what Ms. Price said 
about the number of fast reactors we would need under closing 
the fuel cycle scheme that would really burn up these heavier 
elements, these transuranic elements to really reduce the 
burden on a nuclear waste repository, it is basically a 2:1 
ratio so you need basically one fast reactor for every two 
light water reactors you have. So we have 104 light water 
reactors right now in the United States. If we just keep that 
constant, which I think all four of us--one point is that it is 
not a question about being for or against nuclear power. All 
four of us on the panel are for nuclear energy, and I think we 
all want to see it continue to grow. But let us assume we have 
roughly 100 light water reactors. We will need 50 fast 
reactors. How much are they going to cost? And they cost a lot 
more than a light water reactor. What we really need to hear 
from--it would have been great if we had a fifth panelist from 
the utility company and ask that person whether they would be 
willing to invest in a fast reactor. We are having a hard 
enough time in this country getting utilities to invest in 
light water reactors that get the next generation of nuclear 
reactors being built in this country and here we are trying to 
think about something that is maybe 50 years in the future.
    Chairman Gordon. Thank you, Dr. Ferguson. There are very 
serious issues that go along with nuclear power, and I think 
this committee, the diversity of thought is going to help us 
get there better and so keep up the good work. We need you, Ms. 
Edwards and Ms. Woolsey, to ask the tough questions so that we 
can get better thoughts.
    And speaking of diversity, we recognize Mr. Rohrabacher.

                  High-temperature Gas-cooled Reactors

    Mr. Rohrabacher. And this may fit right in with the 
comments on our alternative reactors in terms of the 
traditional reactors that we have been dealing with and the 
fast reactors that you just mentioned. But back to the letter 
that I submitted for the record, just for the sake of my 
colleagues, it is a letter that I received from Nikolay--sorry 
about mispronouncing the name--Stepnoy from Kurchatov Institute 
in Moscow, and I would like to read a portion of that letter 
[see Appendix: Additional Material for the Record] at this time 
and then follow up with a couple questions that I have for the 
panel. This is addressed to me: ``Dear Congressman: It is time 
to upgrade the relations between the United States and Russia, 
particularly in the area of nuclear power. It is time to move 
from a relationship where the U.S. provides technical 
assistance to Russia to a real partnership for improving global 
energy and economic, environment and nonproliferation. I 
believe that the best developed and most fruitful area where 
the United States and Russia can perform nuclear cooperation is 
in the joint development of a high-temperature gas-cooled 
reactor. The United States and Russia must work together to not 
only bring the benefits of this reactor to both our countries 
but to provide this same proliferation-resistant and secure 
type of reactor to other less-developed countries who are 
moving quickly to harness the benefits of nuclear energy. In 
this way we can make great progress in nonproliferation 
economic development without harming our environment.''
    Let me just note that if 20 years ago one would think that 
I was reading a letter about cooperation with Russia in this 
area, I would tell you you were nuts. But the fact is, I think 
today some of the greatest, the most important avenue we have 
to succeed in some of the issues that are being discussed here 
today is our cooperation with other countries in particular 
with the former Soviet Union, with Russia, who is reaching out 
to us for this type of cooperation. Now, with that said, the 
letter mentions the high-temperature gas-cooled reactor. I 
would like to ask the panel if that is a technology that would 
significantly reduce the waste that has to be dealt with in the 
recycling and reprocessing process that is being discussed 
today. I am not sure what the panel knows about the high-
temperature gas-cooled reactor but if--yes, sir.
    Dr. Ferguson. Well, I heartily endorse your comments about 
a U.S.-Russia cooperation, and just to briefly plug something I 
recently directed, the Council on Foreign Relations task force 
report on nuclear weapons policy, chaired by Brent Scowcroft 
and Bill Perry, and I was the Project Director, we just 
published it a couple of weeks ago and we have made a 
recommendation in there that we need greater cooperation with 
Russia on peaceful nuclear energy. The particular point you 
make about high-temperature gas reactors I think is an 
important one. The Department of Energy itself has looked at 
these reactors--not enough, in my opinion--but what they have 
seen is that there are some benefits to be derived from them, 
maybe not a huge benefit in terms of waste reduction, but one 
benefit is that if they are more efficient, then you can get a 
lot more electrical energy produced for the amount of heat you 
produce from nuclear fission. If we had to do it all over 
again, you know, go back 50 years into the past, 1950s when we 
started commercial nuclear power, it probably would have been a 
wise decision to have stronger development of these type of 
reactors. Right now the light water reactors are getting about 
a third efficiency so we are wasting about two-thirds of the 
energy. With the HTGR, you can get about 45 percent or so 
efficiency out of these, so that is one thing that----
    Mr. Rohrabacher. So more efficiency, you actually have less 
waste to have to deal with.
    Dr. Ferguson. Less waste to deal with, and in terms of the 
proliferation risk, if you look at the plutonium 239 content 
coming out, the isotope that is a proliferation concern, it is 
actually a lower percentage ratio than you would see from a 
light water reactor, depending on how those reactors typically 
operate.
    Mr. Rohrabacher. Mr. Chairman, I would just draw attention 
to that testimony, and this is an issue we should be pushing 
our experts to look at as an alternative if it provides those 
kind of benefits. Any other reaction from the panel?
    Dr. Peters. Let me say, so the high-temperature gas reactor 
is one of the concepts, as Dr. Ferguson alluded to, that is 
part of the Gen IV international forum, so we are looking at 
it. General Atomics, which is a U.S.-based company, has been 
thinking a lot about the high-temperature gas reactor, and so 
there is a lot of thinking about it. As far as international 
cooperation, I can't agree more, especially in R&D.
    Mr. Rohrabacher. One last note before--we have the person, 
the scientist who wrote me that letter from Russia, with us 
today, and his nickname is Nick Nick, and I wonder if we could 
just say hello. Thank you very much for indulging me, Mr. 
Chairman.
    Chairman Gordon. Welcome, Dr. Nick Nick, and I have to say 
that listening to Mr. Rohrabacher advocate cooperation with 
Russia makes me feel much better about our success in the 
Middle East.
    Mr. Baird. Mr. Chairman, on that point, we want to point 
out that it is not just the icecaps that are melting off.
    Chairman Gordon. Mr. Lujan is recognized for five minutes.
    Mr. Lujan. Mr. Chairman, thank you very much. Thank you, 
Chairman Baird. Mr. Chairman, I am pleased today that we are 
here today talking about this because as the debate continues 
about the future of energy generation in our country and the 
role that nuclear power has, it is critical that we as a nation 
invest in the necessary research and development to talk about 
the waste, to talk about what needs to be done with spent fuel 
and how we can break it down, how we as a nation have fallen 
behind other nations and how simply sticking it in the ground 
without attempting to break it down or attempting to solve this 
problem is blissful ignorance. And I am really happy that we 
are here today to talk about this and, Mr. Chairman, to really 
be excited about the fact that in the hearing charter today 
that there is widespread agreement that a more robust long-term 
research and development program is needed to address these 
outstanding issues and to truly look to see how we can focus a 
lot of our energy and investment leaning upon the expertise 
that we have around the country, around the world, to help 
accelerate this, and to have the distinguished panelists that 
we have today that have expertise in each of these areas is 
something that is real important to me.

                Costs of Nuclear Waste Management Today

    Mr. Chairman, I would be anxious to hear from Ms. Price. Do 
you think that the way that we are handling waste today is 
adequate or can we be doing it better?
    Ms. Price. Well, I think in terms of the way the utilities 
handle it today, it is very safely stored and appropriately 
stored in the utility sites either in pools or in dry cask 
storage, and so I think we all four agreed that there is 
sufficient ability to store it at the utility sites today. Does 
that mean that we need to not look ahead to the fact that we 
really do need to have some sort of repository and the nature 
of the repository and the size and the characteristics of it 
are dependent upon what solution we choose for managing the 
waste? So today, are we fine? Yes. Can new plants be built with 
sufficient capacity on their sites to be able to handle the 
used nuclear fuel when it comes out of the reactors? Yes. But 
we do need to be looking ahead to a long-term solution that is 
going to help us address and really maximize the value of what 
is an asset that we have in used nuclear fuel.
    Mr. Lujan. Ms. Price, is utilizing the repository, simply 
storing it, less expensive than recycling it?
    Ms. Price. It is not clear that it is going to be less 
expensive in the long run because the characteristics of the 
repository could be quite different. If you have to isolate the 
fuel for hundreds of thousands of years, you have different 
considerations than if you have to isolate it for thousands or 
hundreds of years. And so if you can isolate and store the fuel 
for hundreds of years and then have the heat reduction, the 
radiotoxicity reduced to a level where it is no longer 
considered high-level waste, then you have got different 
characteristics and you might be able to utilize the repository 
in a different fashion. So the cost of the repository and the 
management of that over the long run compared to the cost for 
the recycling program is something that needs to be evaluated.
    Mr. Lujan. Then why aren't we recycling today and we are 
just talking about storing it?
    Ms. Price. Recycling is one of those things that is, as far 
as I know from a history standpoint, was not considered, or we 
didn't move ahead with it in sort of the late 1970s, early 
1980s.
    Mr. Lujan. Could the argument be made that it is cheaper, 
less expensive to store in a facility like Yucca Mountain as 
opposed to engaging in the necessary means to be able to invest 
in the technology to adequately break down to be able to 
utilize recycled spent fuel or waste?
    Ms. Price. My last comment, and I will turn it over to my 
colleagues on the panel, I would say that that wasn't the 
decision that drove storing it on site in a repository solution 
versus recycling opportunities. That was driven by other 
factors including proliferation concerns and risks at the time, 
and I think this is the time to look at--if we are going to 
move ahead with the nuclear renaissance, we need to have an 
all-enclosed fuel cycle opportunity that really allows us to 
safely manage nuclear fuel in a more safe, more secure way 
going forward.
    Mr. Lujan. Thank you.

                   The Navajo Nation's Uranium Supply

    If I could, Dr. Ferguson, you mentioned the MIT study that 
is taking into consideration how much uranium is out there and 
the inventories. Are you aware if the Navajo Nation's uranium 
supply was included in the MIT study?
    Dr. Ferguson. No, I am not, but that is an important 
question, you know, how does uranium mining, prospecting affect 
certain groups of people, and I know this has been a big 
environmental concern with that group of people.
    Mr. Lujan. And Mr. Chairman, the reason I bring that 
question up is, as we look towards the debate about how, the 
role nuclear energy will have in the future of our nation's 
energy needs, that we not forget about many of the abandoned 
uranium mines around the country, at current count, over 500 in 
the Navajo Nation alone, that need to be addressed as we talk 
about this as well. And so as we talk about the importance of 
recycling and R&D to being able to break down waste that we not 
forget about some of the responsibilities that we have also 
with some of the abandoned mines and the people that are being 
impacted. To date, there have been 113 structures that are in 
process of being demolished, 27 radiation-contaminated 
structures and 10 residential yards. People are living in these 
contaminated areas, and I think that we need to make sure that 
we talk about that at some point as well.
    Thank you very much, Mr. Chairman, for this important 
hearing.
    Chairman Gordon. Thank you for bringing that up. Again, I 
think one of the things we have learned today is that we do 
need to again have that type of survey. We need to be reviewing 
the things you just talked about. We will have--you know, this 
kind of discussion is not off limits to this committee and 
again, there are hard questions that need to be asked too and 
we will try to do that.
    Ms. Biggert, you are recognized for five minutes.
    Ms. Biggert. Thank you so much, Mr. Chairman, and thank you 
all for being here. This is, I think, a really good hearing.

              GNEP and the Advanced Fuel Cycle Initiative

    About 11 years ago when I first came here and the first 
month that I was here, I got a call that the President had cut 
$20 million from the electro-metallurgical program at Argonne. 
I didn't even know how to pronounce it at the time but I was 
very concerned and worked to get that money back, so this is 
how long, at least when I have been here, that we really have 
been working on reprocessing and now we are talking recycling 
but it is very frustrating, I think, that we really haven't 
moved the goal posts very far, and in fact there were six 
reprocessing plants that were built in this country and one 
opened and then the rest were shut down without even opening by 
President Carter and still we sit, you know, waiting for 
something to happen.
    I know, Dr. Peters, you said that you don't think that it 
is really urgent that we move ahead right now but I am 
frustrated that we are not making enough progress, and 
particularly if we are going to face something like cap and 
trade and, you know, all the things that we are going to have 
to do because of the carbon, you know, because of the carbon 
issue and I think that is very important, but I think that 
nuclear really has to be at the forefront of moving ahead if we 
are going to be able to have--reduce the carbon in this country 
and reprocessing, recycling, I guess we are calling it 
recycling now, is so important but we have to move ahead, and I 
think the research and development and the demonstration is so 
important. When we had GNEP in the last few years, we have 
talked about what that means, and I would like to ask Dr. 
Peters, what are the--what research aspects of GNEP and the 
advanced fuel cycle initiative, which of those, or what aspects 
of those should be continued?
    Dr. Peters. So what should continue is, we should continue 
to develop advanced reprocessing technologies both aqueous and 
electro-metallurgical, electrochemical, pyro, whatever you want 
to call it at the lab scale for sure. That is work that, as you 
are aware, has been going on for a decade or more. There also 
needs to continue to be work on advanced fuels, developing 
advanced fuels for ultimate recycling. There needs to be work 
on the waste management aspects of the problem, so other 
concepts, say, in addition to say, Yucca Mountain repository, 
thinking about certain streams going down bore holes versus 
salt disposal versus alternative disposal concepts, all this 
has to be brought together through a very robust analysis of 
the overall system so that you think about the economics, the 
nonproliferation and all that. So the advanced fuel cycle 
initiative program that existed before GNEP really is where we 
are going back to quite frankly, but the component that we need 
to add to it is the demonstration component, and that gets back 
to needing to think very carefully over the long-term about the 
R&D needs for the science and engineering at the lab scale but 
thinking about ultimately going to demonstration, and that 
needs to be laid out.

                        Time Issues and MOX Fuel

    Ms. Biggert. I think the problem that we had with the GNEP 
was that there was--some wanted to move right from the research 
and development to the commercialization rather than doing the 
demonstration or the system analysis but how long is this going 
to take? And Dr. Hanson, you talked about--and I have been to 
France to see what you do there, and it seems like you are 
moving and everyone talks about the proliferation and yet I 
think we were so worried about that 30 years ago and yet most 
of the--and unfortunately, most of the countries that we 
worried about already have some capabilities in that area, so 
we need to move ahead faster to find, you know, maybe something 
resistant but at least to go forward on our own with our 
development. I guess the MOX facility that is being built at 
Savannah River site is scheduled to produce MOX fuel by 2016. 
Who will be using this MOX fuel that is being developed?
    Dr. Hanson. To your question with regard to who will use 
the MOX fuel, it will be any of the U.S. utilities who choose 
to purchase this fuel from the MOX project. At the moment there 
are discussions ongoing with three or four U.S. utilities who 
have a strong interest in purchasing that material for their 
reactors.
    Ms. Biggert. Do you think we are moving fast enough for 
development of the----
    Dr. Hanson. No, absolutely not. We are sitting now on 
60,000 metric tons of spent fuel. We are discharging 2,000 
every single year, and that is before we build any new 
reactors. If it takes us 20 years to start up recycling, we 
will have 100,000 metric tons of fuel in storage. The largest 
plant in the world, which we operate in France, reprocesses and 
recycles about 1,700 metric tons a year. That means if we 
replicated that plant in the United States, it will take 60 
years just to get rid of the inventory without touching the 
material that is being discharged. I think we have waited too 
long. I think we need to start as soon as we can while 
continuing the R&D on advanced technologies to do it even more 
efficiently, and I applaud the Committee's support of the AFCI 
program in that regard. I think that is very, very important. 
But I don't think we can wait for revolutionary changes which 
may never actually come to fruition.
    Ms. Biggert. Thank you. I yield back.
    Chairman Gordon. Ms. Kosmas is recognized for five minutes.

      Clarification on Reprocessing, Recycling, and Fast Reactors

    Ms. Kosmas. Thank you, Mr. Chairman. I appreciate this 
opportunity and I thank you all for being here and I appreciate 
that the Chairman said this had been dumbed down to us, but I 
think I need to go one level lower for the technological part 
of it. But in terms of our--I state for the record that I am a 
proponent of nuclear energy as one of the alternative supplies 
that we need in order to move forward, and so I very much am 
interested and enlightened by what you have said, what I was 
able to grasp from it. Perhaps my comment would be that I think 
we all--you all said that the recognizable problems are 
nonproliferation, cost and waste, and those are things that 
would have to be considered no matter what course of action we 
took. As I understood you, Dr. Peters said fast track the 
advanced fuel cycle program. Dr. Hanson said recycle and bring 
it home, and if I understood correctly, Dr. Price said we could 
be doing both. Did you say that is possible to create a 
situation in which 70 percent is based on recycling and 30 
percent uses the recycled, or did I misunderstand you?
    Ms. Price. I would like to clarify that a little bit. Dr. 
Hanson and I advocate different ways to handle the used nuclear 
fuel. The technique he uses in reprocessing does extract some 
of the incremental energy and burns the plutonium. The 
technology that I am advocating actually burns up all of the 
high heat-bearing constituents in the used nuclear fuel and so 
it is a different technology. I do think we should continue to 
do research, as Dr. Peters suggests, focused on the recycling 
side of things because I think we can drive that and have a 
better all-in solution in the back end.
    Ms. Kosmas. Thank you. I think that was clarified, but I 
appreciate it very much.
    So Dr. Peters, if you are recommending that the United 
States advanced cycle program develop a roadmap, in your 
opinion, what is the reasonable timetable and the budget for 
the development of that roadmap? In other words, where should 
we be going now, and would you agree that continuing the 
recycling while working on the advanced is a good parallel 
track?
    Dr. Peters. So first on the roadmap, to cost estimate on 
the fly here, I am not speaking for the Department, but we 
wouldn't reinvent the wheel. There has been a tremendous amount 
of work done already. That is the first thing. So I am 
imagining a group of lab, university and industry people 
getting together over the course of the next six months to a 
year that could put together, I think, a very robust roadmap, 
you know. It would not be--it would not break the bank. It 
would be, you know, a few million dollars kind of thing, 
because we have thought about this very deeply. I think we just 
need to come together and lay out the right path forward.
    Your other question, should we--what I was trying--I think 
you articulated my position correctly in your introductory 
remarks. I think we should continue the advanced fuel cycle 
program but I would argue for a bump in the investment once we 
have the right roadmap, and I think the outcome of that road-
mapping exercise ultimately is going to be a policy decision to 
leapfrog, I hope.
    Ms. Kosmas. Okay. Dr. Hanson, would you restate what I 
thought I heard you say about the leapfrog?
    Dr. Hanson. Yes. In my long career in the nuclear industry, 
I have never seen a leapfrog that was successful in this 
industry. I started in the fast reactor world when I got out of 
school and it was just around the corner and we were going to 
be turning out fast reactors and they were going to replace 
light water reactors. The fast reactor is a little bit like 
fusion. It is always 20, 30 years into the future and it just 
keeps on receding there. I would like to have the optimism that 
Dr. Price has with regard to fast reactors but my own 
experience is that they are not yet proven to be commercially 
acceptable. We are only having a nuclear renaissance because 
the utilities have driven capacity factors in excess of 90 
percent and they are running the plants very efficiently. There 
is not a single fast reactor anywhere in the world that has 
even achieved a 50 percent capacity factor. There is a lot of 
proof of principle which needs to be done before any utility 
will purchase a fast reactor. So if we are talking about 
leapfrogging, that leap may take us a very, very long time 
before we land.
    Ms. Kosmas. Thank you very much.
    Then Dr. Ferguson, would you reiterate what you said about 
the utilities needing to be at the table?
    Dr. Ferguson. Absolutely, and I think on the fast reactor 
question, I think to narrow down a specific question relevant 
to your committee is, what is the role of the U.S. Government. 
Should you be putting money into developing a demonstration 
project for a fast reactor? I know there has been a big debate 
in a related area that is a demo capture, carbon capture and 
storage from coal-fired plants. We have been back and forth on 
this and it looks like Secretary Chu is now willing to put 
about a billion dollars toward that. In my opinion, it is a 
step in the right direction.
    So the question comes, and I think Dr. Hanson has framed it 
in an interesting way. We have looked at France, we look at 
Japan, we even look at Russia and we look at India, the few 
countries that have some experience with fast reactors. When I 
was in France just two months ago, I spent a week there 
touring, and I visited the Phoenix reactor site. They are 
shutting it down this year. I talked to the director. He is a 
very sad man because they are shutting it down all the time and 
it is, you know, uncertain when France is even going to get its 
next fast reactor built, maybe 2020 or beyond. So that is part 
of--to fully close the fuel cycle. That is what Ms. Price is 
saying. Basically you have two choices here. You would have the 
choice of what the French are doing now, which is a once-
through recycle, and they are storing the MOX spent nuclear 
fuel so they still have to pay for those storage costs and the 
view is that they are going to eventually mine that plutonium 
and that spent fuel to feed fast reactors in the future, but we 
don't know if these fast reactors are going to work or not or 
whether they are economically feasible. Maybe it does make 
sense to put some federal money into one demonstration project 
and see if this works or not.
    Chairman Gordon. Thank you, Dr. Ferguson.
    Ms. Kosmas, your questions certainly demonstrate that we 
need to dig more and learn more about this. Thank you.
    Ms. Kosmas. Thank you, Mr. Chairman. I look forward to the 
roundtable discussion. Thank you.
    Chairman Gordon. Mr. Bilbray is recognized for five 
minutes.
    Mr. Bilbray. Thank you, Mr. Chairman. You know, Mr. 
Chairman, I would like to stop a second and really congratulate 
you at having this hearing, and I just want to say that I 
appreciate the fact that you have been brave enough to openly 
discuss these issues. Political orthodoxy basically says there 
is a lot of discussion that this committee has been doing that 
shouldn't be done if you want to, you know, be a political 
might in American politics, but just having this discussion 
really I think does credit to this committee and shows how 
essential this committee is to not just Congress but this 
nation, and so I just really want to congratulate you on that 
because the fact is that when it comes to anything nuclear, we 
have seen prejudice and ignorance stand in the way of science 
and just as much as history has damned people in the past for 
allowing their prejudices and their phobias to stand in the way 
of intellectual decision and discussion, I think that time is 
going to show that you led the charge on opening the door, 
pulling the curtain back and being frankly looking at the facts 
rather than misperceptions of the past.
    Chairman Gordon. Thank you, Mr. Bilbray, and your time has 
extended another 10 minutes.
    Mr. Ehlers. I think he is going nuclear.

                      Nuclear Materials Transport

    Mr. Bilbray. It is not a melt-down. Look, my question is, 
one of the things--we will get into this. One of the great 
obstructions of working at--first of all, I totally agree that 
we ought to be looking not at disposal but at storage based on 
either short-term or long-term reprocessing in some way, and we 
can talk about that. But let us be frank about it. One of the 
great oppositions to the Yucca Mountain project was not based 
on on-site location issues, it was based on transport. Now, how 
in the world will we be able to face the political heat, and I 
know you are probably the wrong ones, but your comments about 
the issue that we need to address the issue of transport, 
especially what is kind of interesting because from the 
military point of view, there is a lot of related issues that 
don't seem to be standing in the way of the United States 
government doing what it needs to be able to take care of the 
problem. Comments on the transport issue?
    Dr. Ferguson. So in France, they are transporting plutonium 
several hundred miles from the la Hague reprocessing facility 
in Normandy down to the Melox facility in the south of France. 
Now, they haven't had any security incidents that I am aware of 
and they have been doing this for many years. So, so far so 
good. But it only takes one incident. They are, you know, 
transporting several bombs' worth of plutonium in each 
shipment. So it is not that--the proliferation threat in 
countries like France, it is not that France would then use 
that commercial program to make its own nuclear weapons, it is 
that insiders might be able to sneak out some quantities of 
that material. As I point out in my testimony, only one-tenth 
of one percent of the material going through a bulk handling 
facility annually could be enough to make a nuclear bomb. Now, 
you pointed out the U.S. military. I used to be in the U.S. 
military, and I was in the U.S. nuclear Navy. We have a very 
good safety record, but we had a problem a couple of years ago 
in the U.S. Air Force. There was a bent spear incident in which 
some nuclear-armed cruise missiles were unaccounted for for 36 
hours. Now, there wasn't an insider threat there, it was really 
just a bad mistake, accountability, but it does point out that 
even in organizations with high security standards, things can 
go missing. There is an opportunity for diversion.
    Dr. Peters. As you noted, it is not really a technical 
issue per se. The technologies exist. We do it safely and 
securely now domestically. It is all about public trust and 
confidence, and it is a social science issue if there is 
science in it and so it is about communication and people 
understanding the risks and whatnot at a level that they can 
understand and also talking to them very carefully about what 
the plans are and making it very transparent, and that is 
something that needs to be done. I mean, we have had success in 
the United States with shipments to the waste isolation pilot 
plant in New Mexico. I would say in general the transportation 
program there has been--has gone very well. So we have some 
experience domestically but it would be a long process of 
developing public trust and confidence.
    Dr. Hanson. I would just like to echo what Mark Peters has 
just said. We have transported tens of thousands of casks of 
used fuel to our facilities in France without any incident. The 
containers which are used are, for all practical purposes, 
indestructible. There is a need to get public acceptance and 
that is a social science issue, not a technology issue. I think 
we have had a phobia in this regard for many, many years and we 
need to get over that phobia because we have to eventually move 
the material somewhere.
    Mr. Bilbray. Well, my time has expired but I just want to 
say I think that maybe I am suspicious of intention here but 
the phobia was almost promulgated by people based on the fact 
that they saw it as a way to destroy an energy source based on 
misperception and they use it as an excuse for an agenda that 
wasn't up front.
    Thank you very much, Mr. Chairman, and again, thank you for 
holding this hearing. I hope to see us continue this. There may 
be one committee that wants to handle only the pieces of 
legislation that are marked H.R. that may not want to address 
the nuclear power issue but I am glad to see that we have been 
able to reserve this, mostly because they have been willing to 
avoid it, and I hope that you continue your leadership on the 
issue. Thank you.
    Chairman Gordon. Thank you, Mr. Bilbray.
    Dr. Hanson, if you want to confirm the indestructibility of 
those casks, I will loan you my daughter. That is the ultimate 
test.
    Now, I would suggest that the Committee buckle their 
seatbelt and we recognize Ms. Woolsey for five minutes.

                              Safety Risks

    Ms. Woolsey. Thank you very much. Mr. Chairman, I echo what 
Congressman Bilbray just said about you and how open you are 
and how good you are to all of us, even though I can't remember 
what Mr. Bilbray because it hurt my feelings so much, all those 
words about people like me that absolutely do not support 
nuclear energy, and it isn't because it is not a decent energy, 
it is because of human error and our lack of being able to 
handle waste and have a place for waste and transporting, and 
you know, it is a good energy until it isn't, and then look 
what we have got. We have another Hiroshima. I absolutely 
believe we should be using these same millions of dollars for 
other kinds of energy research until--I don't think it will 
ever be safe enough, and I just wanted to be up front with 
that, and I would--you know, there is solar, there is wind, 
there is waves, there is geothermal, there is all kinds of 
things we haven't even thought about because we are putting 
millions and millions of dollars into something that people 
really don't want to have in their neighborhood. So we have 
gone on and on about Yucca Mountain. Imagine, Dr. Hanson, if we 
tried to build a recycling plant in the United States of 
America to handle all of the nuclear waste worldwide. I can 
imagine trying to get through that argument in maybe 20, 30, 
40, 50 years from now but I don't think that can happen now. 
Maybe some other country, maybe we could convince some poor 
country to take our waste and handle it, you know, on some 
island where we could just turn our backs on it, which I 
wouldn't support at all, but I am not--I mean, I know I am not 
going to convince you, you are not going to convince me. This 
is very good because I learned what all of you folks think is 
so important and why it is okay to invest in doing all of this 
when indeed we could have quite an accident here in the United 
States of America, and that is why we don't have new nuclear 
sites. How long has it been since we have had a new nuclear 
plant in the United States? Yes, Dr. Ferguson.
    Dr. Ferguson. In 1996, Watts Bar Unit 1 was the last plant 
to really come on operation.
    Ms. Woolsey. And that is South Carolina?
    Dr. Ferguson. Tennessee, or TVA.
    Ms. Woolsey. Oh, sorry.
    Dr. Ferguson. But that plant was ordered back in----
    Chairman Gordon. Alabama, actually.
    Dr. Ferguson. I thought it was Tennessee, Tennessee 
Authority. But that was ordered back in 1970. So we haven't had 
a plant that has been ordered since about 1973 and gone 
completely to construction.
    Ms. Woolsey. And what are the arguments against these 
plants that you are having to surmount?
    Dr. Ferguson. Well, I think it really boils down mostly to 
economics. I mean, there has been some public opposition, but 
if you look at the communities where nuclear power is being 
generated, they tend to be overwhelmingly supportive of nuclear 
power plants for jobs and the plants have become very safe 
compared to where we are with Three Mile Island. I grew up in 
Pennsylvania not too far from where the accident happened, so I 
remember what happened there 30 years ago, and I mentioned to 
Congressman Bilbray, I was in the U.S. nuclear Navy so I know 
what a safety program is like that meets high standards of 
excellence. What happened immediately after Three Mile Island 
was, the industry formed what is called INPO, the Institute for 
Nuclear Power Operations. It has been a self-policing 
organization that has been an industry watchdog. Now, it 
doesn't mean we don't need a Nuclear Regulatory Commission, we 
do. We need a strong, independent regulator but INPO has served 
an important purpose in keeping the industry accountable, in a 
way kind of shaming them and doing peer reviews and making sure 
that they are living up to high standards, not that we haven't 
had problems. If you look at a plant in Ohio a few years ago at 
Davis-Besse, there was a potential accident in the making 
there.
    Ms. Woolsey. So unless you want to----
    Dr. Peters. Well, I guess a little bit more. So the last 
one was brought on. Then there was another one brought online 
so we are currently operating 104 reactors, and the Nuclear 
Regulatory Commission has 17 combined construction/operating 
licenses that they are in the process of evaluating right now 
that could lead up to 26 new units. So right now what they are 
saying is, there could be new plants online by 2015, 2016. So 
they are moving forward. A lot of it is about the economics.
    Ms. Woolsey. And for the same amount of investment, are 
there not safer ways to provide energy in the United States of 
America?
    Dr. Peters. In terms of cost per kilowatt-hour, it is 
competitive with coal.
    Ms. Woolsey. How about risk?
    Dr. Peters. Well, they are all going to have their 
challenges. It is hard for me to put a price on risk, first of 
all, so I probably can't give you a clear answer to that. But 
what I will say right now is that we should be investing in all 
the things that you are talking about but those just aren't 
cost-competitive. More importantly, it is the reliability and 
the ability to produce a lot of electricity that you don't get 
from some things like solar and wind yet.
    Dr. Hanson. If I may, I would like to correct one thing in 
your statement. There is no energy technology that is risk-
free. That is certainly true, and nuclear has some unique 
hazards associated with it, but it has a very, very high safety 
record worldwide. There is no conceivable accident in the 
civilian nuclear power cycle that can get anywhere near the 
consequences of a Hiroshima. That is physically impossible. You 
mentioned who would want it. During the GNEP studies, 15 
communities raised their hand and said we want to study putting 
a recycling facility in our community because of the economic 
benefits that would come with it. Finally, just to make the 
case for the fact that there is no such thing as a perfectly 
safe industry, the wind industry is--by the way, we make 
windmills too. But the wind industry is growing pretty fast in 
the U.K. and there is a very interesting company there that is 
making windmills and they are keeping track of the deaths 
caused by windmills, which at last count had reached 41 
worldwide, and we haven't killed that many people with the 
nuclear industry in over 50 years of operation.
    Chairman Gordon. Thank you, Dr. Hanson.
    Ms. Woolsey, we need you to continue to ask the hard 
questions. Thanks for being here. Do you have a closing?
    Ms. Woolsey. Well, my closing was my Chairman here from our 
subcommittee. What about Chernobyl?
    Dr. Hanson. Chernobyl was a bad example with a bad reactor 
with no containment and poorly operated. The direct 
consequences in terms of death was exactly 31.
    Chairman Gordon. Thank you, and Mr. Hall is recognized for 
five minutes.
    Mr. Hall. Mr. Chairman, I want to yield maybe a minute of 
my time to Mr. Bilbray to expound a little further.
    Mr. Bilbray. Dr. Ferguson, you served in the United States 
Navy. What is the last reactor put online in this country?
    Dr. Ferguson. Well, in the U.S. Navy.
    Mr. Bilbray. Right.
    Dr. Ferguson. I don't know exactly what the reactor was.
    Mr. Bilbray. George Bush?
    Dr. Ferguson. Right.
    Mr. Bilbray. Ronald Reagan?
    Dr. Ferguson. Yes, sir.
    Mr. Bilbray. How many nuclear power units--who in the last 
30 years have been the only purchasers of nuclear power in this 
country?
    Dr. Ferguson. Well that brings--well, the U.S. Navy, and it 
brings up a very important point about our workforce, and part 
of the work I am doing at the Council on Foreign Relations is 
analyzing the nuclear workforce and the shortages we have. If 
we really want to expand nuclear energy use, where are we going 
to get the skilled people to run these plants? We have been 
drawing them from the U.S. Navy but the Navy obviously needs 
these people as well. So our workforce is shrinking. The 
workforce is aging. They are nearing retirement age very 
rapidly.
    Mr. Bilbray. And the fact is, not only has the Federal 
Government continued to purchase and invest in nuclear power as 
its preferred source for large craft, but it also places it in 
the middle of high urban areas like San Diego Bay where you 
have multiple, multiple nuclear reactors right in the urban 
core, right?
    Dr. Ferguson. That is correct, and it also the submarine 
reactors are designed to go very deep. I can't tell you how 
deep, that is classified, but very deep and still operate very 
effectively.
    Mr. Bilbray. Mr. Chairman, thank you very much. I just 
wanted to point out how safe it was.
    Mr. Hall. I will reclaim my time, and I would like to use 
my time to point out that this is the first difference I have 
ever had with Ms. Woolsey, I believe, is on nuclear energy.
    Ms. Woolsey. Except you don't know how to pronounce my name 
yet.
    Mr. Hall. I always call you Lynn. Okay. Let me use my time.

                         More on Fast Reactors

    Dr. Ferguson, a real quick answer from you on this if you 
would. You talked about fast reactors in your testimony, and I 
think you talked some more about them a little bit ago about 
reactors being able to breed new plutonium and how they were 
designed to do this. I think you covered that, but I didn't 
hear an answer as to why is France turning--why are they 
shutting down their fast reactor? I think it is Phoenix, isn't 
it, the prototype Phoenix?
    Dr. Ferguson. That is correct. They are shutting that down 
this year. They----
    Mr. Hall. Why? Just give me a short answer to that.
    Dr. Ferguson. One very brief reason is, it is a political 
opposition to--their Super Phoenix was the big fast reactor. 
They shut that down in the mid-1990s, mainly for political 
reasons, but they were also having problems. I think one of the 
panelists mentioned or maybe one of the Congressmen mentioned 
about fast reactors. The history of fast reactors, we haven't 
really had a fast reactor ever operate even at 50 percent power 
capacity, so it is still an unproven technology. Phoenix, 
though, was designed to be a prototype, to be a test reactor, 
and it has served its purpose very well over a number of 
decades.
    Mr. Hall. I thank you.

                Specific Research and Development Needs

    Dr. Hanson, I didn't hear your testimony at the beginning. 
I was at another Committee meeting. But at end of your 
testimony, your written testimony, you talked about areas for 
research, development and demonstration and in particular you 
mentioned reducing the minimal gaseous and liquid discharges 
that might arise from the current processing technologies, 
electromagnetic separation and advanced instrumentation. Give 
us a little explanation of each of these, not that you can make 
me understand it but we would have it on the record.
    Dr. Hanson. Thank you. I will try very briefly. When you 
shear and dissolve nuclear materials, you release some of the 
gases that are included in the fuel, and you can deal with it 
in a number of ways. One is by discharging them into the 
atmosphere as long as you stay within regulatory limits and the 
other thing that you can do is capture, package and dispose of 
them. We haven't done much research in that capture and 
control. Basically it is like carbon sequestration. We haven't 
done it because we haven't needed to do it. But if we are going 
to locate a recycling facility in the United States, I think we 
are going to have to meet some very strict limitations on the 
discharges and so we need research in that particular area. We 
have already talked about research on electro-metallurgical 
separations. That should continue in advance of the fast 
reactors. With regard to the safeguards, there is no doubt that 
you have to have safeguards and security associated with these 
types of facilities. In order to do that, you have to have 
very, very sophisticated instrumentation to measure the flows 
of material and to make sure that material is not 
surreptitiously removed from the facilities. There is a lot 
that can be done in this particular area and I think we can 
learn a lot from what the U.S. military has done and at the 
national labs in order to make the next-generation facility 
that is built even more proliferation resistant than the ones 
that are in existence today.
    Mr. Hall. I thank you. I think my time is up. Thank you, 
Mr. Chairman.
    Chairman Gordon. Thank you, Mr. Hall. We will have a test 
at the end of this hearing.
    Dr. Baird is recognized for five minutes.
    Mr. Baird. I thank the Chairman. I thank our witnesses, a 
fascinating topic. If I applaud you and praise you, Mr. 
Chairman, can I have an extra six minutes? It is a worthwhile 
hearing and we are grateful for your expertise.

                            Economic Issues

    I want to talk a little bit about the economics. You know, 
we do have a difficult choice before us. I happen to be 
absolutely convinced that the evidence is clear that the 
climate is changing, that the Earth is overheating and that the 
oceans are becoming acidified. So reducing CO<INF>2</INF> 
output makes a lot of sense. On the other hand, it is not just 
nukes or CO<INF>2</INF>, there are a host of other technologies 
available. Talk to us a little bit about--I want to raise two 
quick issues. One, when people say carbon zero, there ain't no 
such thing. I mean, the net cost to extract uranium, transport 
the uranium, process uranium, build the concrete containment 
vessels, et cetera, there is a large carbon cost to that. So 
talk a little bit about that, but also talk to us a little bit 
about subsidies. When we talk about the relative economics of 
nukes versus alternatives, what kind of subsidies, government 
subsidies, go into the nuclear industry from front to back 
including insurance, including waste reprocessing, et cetera? 
And on the research side. Can you share that with us?
    Dr. Hanson. If I may, I will try and address your first 
question and leave the second one to the panel. You are 
absolutely right. When you are trying to compare technologies, 
you need to look at life cycle carbon footprints and not just 
the emissions from the facility. The nuclear power plants 
basically are zero-emission plants. There is a carbon footprint 
associated with enrichment and building the plant and doing the 
mining. However, it is very small. If you look at the carbon 
footprint of the available technologies to produce electricity, 
what you will find is the lowest carbon footprint is nuclear 
and wind. They are almost identical. The carbon footprint of 
solar photovoltaics is very large, so much so that if you 
replace all the nuclear power plants with solar photovoltaics, 
you would increase carbon emissions by a factor of five. You 
need to look at these things. There are some very good studies 
that have been done in the U.K. and in the international 
community to make the comparison, and I would submit that 
nuclear energy is very, very carbon friendly.
    Mr. Baird. Let us talk a little bit about subsidies then.
    Dr. Peters. So maybe I will speak to the R&D part perhaps 
is the place where I should start. So in the past there was 
significant investment in R&D in the old breeder reactor days 
back in the, you know, 1960s, 1970s, 1980s.
    Mr. Baird. Let us include fusion in the----
    Dr. Peters. Right. So since the mid-1990s, then R&D went 
away for quite a while, and in the mid-1990s it started to ramp 
back up. So in a combination of the advanced fuel cycle 
initiative and Generation IV, you are looking at about $300 
million a year going into R&D in nuclear energy.
    Dr. Ferguson. Two points I would like to make is that how 
many nuclear power plants do we need to build to really take a 
further bite out of climate change. If you look at a study from 
2004, two Princeton researchers, Dr. Steven Pacala and Robert 
Socolow, they looked at the so-called wedge model and they 
break up the greenhouse gas emissions increases into seven 
equal wedges and asked, so if nuclear were going to fill one of 
those seven wedges, how many nuclear power plants would you 
need to have online by mid-century. You would need to have 
equivalent of about 1,000 1,000-megawatt electric power 
reactors on line by mid-century. Right now we have about the 
equivalent, just a little bit less than 400, the amount of 
plants online. That is an aging fleet. We are going to have to 
replace those reactors by mid-century so we are going to have 
to build that number of reactors, roughly 400, and build about 
another 600 in addition. Now, I know Areva is building the EPR, 
which is about a 1,600-megawatt electric plant. But the 
ballpark figure is that you have to build one new 1,000-
megawatt electric plant, have it come on line every two weeks 
between now and mid-century to have a further significant 
reduction in greenhouse gases from nuclear power. It is a 
very--it is not impossible to do but it is very challenging. 
The last time we came close to that in the world was in the 
early 1980s when France and Japan were building nuclear 
reactors rapidly. So I just want to put that out there.
    And in terms of subsidies, the question of, can we learn 
from other countries' experience? As I mentioned, I have been 
studying the French experience. Is the French model applicable 
to us? Well, they have very central government control. The 
French government owns Areva. They have a controlling stake in 
Areva. They own Electricite de France. We don't have that kind 
of situation in the United States. The French government was 
able to offer a loan structure to allow France to build now 
about 58 nuclear reactors that are now operating. We have 104 
reactors operating, more than France, but in terms of 
proportional use, the French are ahead of us, about 80 percent 
to 20 percent. So the question is, does it make sense for us, 
what are the opportunity costs for us in giving the nuclear 
industry here in the United States, which is a relatively 
mature industry, billions of dollars, maybe even hundreds of 
billions of dollars, worth of loans to further stimulate 
nuclear power expansion.
    Mr. Baird. And my main point would be that that cost needs 
to be factored into the per-kilowatt-hour, per-megawatt-hour 
cost, the subsidy, as we say. One technology superior to 
another on a cost perspective, there are a host of subsidies 
that ought to factor in that.
    Dr. Ferguson. You are right. We shouldn't be in the 
business of picking winners and losers. Two years ago I 
published a report that said that if you want to be supportive 
of nuclear power, you need to get the carbon pricing right, 
either through a carbon tax or cap and trade, set the right 
price. Nuclear would be on an equal playing field with coal and 
natural gas.
    Ms. Price. If you take a look at the current price of 
commodities in the market today, what you would see is that 
nuclear with its subsidies and wind and solar with their 
subsidies, and even with natural gas in the $3 to $4 range 
where it has been in the $8 to $10 range, nuclear is straight 
up competitive with natural gas, and if you put a carbon tax on 
it, then it is more attractive and it is more attractive than 
wind and solar including the subsidies that they currently have 
today.
    Mr. Baird. It is a grave shame that some of our colleagues 
are not here to have heard those prior statements. I thank the 
panelists.
    Dr. Hanson. If I may, I would like to make one correction 
to what my friend Charles said. The nuclear industry, to my 
understanding, is not asking for billions of dollars of loans 
from the government, they are asking for loan guarantees for 
which they will pay, and so unless projects default, the net 
cash flow will be to the government and not from the 
government.
    Mr. Baird. Coming from the state with WPPSS, I would be a 
little bit cautious about that last statement.
    Dr. Hanson. Yes, no doubt.
    Chairman Gordon. Thank you, Dr. Baird. As usual, very good 
and thoughtful line of questioning.
    Mr. Inglis is recognized for five minutes.
    Mr. Inglis. Thank you, Mr. Chairman.
    Dr. Ferguson, that was music to my ears, and I agree with 
Dr. Baird that I wish that a lot of our colleagues could have 
heard some of that last little bit. If you change the--if you 
internalize the externalities, negative externalities 
associated with some of these fuels that are the incumbent 
fuels, suddenly technology takes off and we start doing 
exciting things as clean nuclear power with no emissions and it 
is very, very exciting.

               The MOX Process and on More Fast Reactors

    Dr. Hanson, I think I am right about this, I am not sure, 
so it is dangerous to ask a question if you don't know, but our 
former colleague from Ohio used to tell me all the time--Dave 
Hobson used to be critical of the MOX process, as I recall, and 
can you tell me what the--his objection, as I recall, was that 
what we are doing at Savannah River site, he says, he charges, 
it is old technology, we should be moving on to the new 
technology. I am wondering what your reaction to that is. Is he 
right? Is he wrong?
    Dr. Hanson. It would be very dangerous of me to try and 
paraphrase Representative Hobson's position, but as I do 
understand it, he was supportive of the concept of recycling. 
He was not supportive of the MOX project in South Carolina for 
a number of reasons. In particular, he was very skeptical of 
the fact that the Russians would do their share which was to 
demilitarize at the same pace that we were doing it, and as the 
Russians slowed down, he became skeptical of the whole program. 
However, we have very important nonproliferation concerns and 
obligations under the NPT. We need to start destroying military 
plutonium, and that facility is going to do it. I never heard 
any criticism from him with regard to the technology. I did 
hear a lot of criticism of the Department of Energy and its 
seeming inability to control and bring projects to completion.
    Mr. Inglis. Ms. Price, is that your understanding what Dave 
Hobson's objection was, or do you remember?
    Ms. Price. I am sorry. I don't know what his objections 
were.
    Mr. Inglis. What I heard him, Dr. Hanson, I think, is that 
he didn't like the technology. He thought that it was old. Is 
that--anybody want to comment about whether it is old or is in 
fact----
    Dr. Hanson. It is not old, it is state-of-the-art and I 
never heard him make that comment.
    Dr. Peters. But I would say that, back to what the Russians 
are doing, so what the Russians have considered doing is 
actually taking care of the plutonium in a fast reactor as 
opposed to going to MOX and thermal recycle. And this gives me 
an opportunity. The fast reactor discussion by the panel, I 
encourage the Committee to look more deeply into fast reactor 
experience because there is--it is extensive experience in the 
United States and worldwide and there is currently 
demonstration fast reactors being constructed in other 
countries. So I wouldn't want to say that--it is not an 
unproven technology. So I think it would behoove us to look at 
that much more carefully before we just dismiss it as an 
unproven technology. I think it needs to be developed further.
    Mr. Inglis. A quick explanation of that technology. How 
does that work?
    Dr. Peters. Well, there are different ways of cooling it. 
As opposing to being moderated by water, it is moderated by 
perhaps liquid metal like liquid lead or liquid sodium, and the 
difference is how fast the neutrons travel inside the core. So 
instead of building up a lot of isotopes higher than uranium, 
you can actually configure the core such that you can burn it 
down. So it is slow neutrons versus fast neutrons. So in the 
case of a fast reactor, you can use it to actually burn down 
material and also perhaps breed material.
    Mr. Inglis. Got you.
    Ms. Price. One point I would like to add to that in the 
context of whether there is better technology than MOX for 
addressing plutonium, if you do bring the plutonium and if you 
do use the plutonium in a MOX context, you still end up with 
spent nuclear fuel on the back end that you actually have to 
then turn around and handle. If you burn it in a fast reactor, 
you are actually consuming the plutonium and so that is the 
basis. I would assume that he would say look, there are 
technologies that can more completely consume it and reduce the 
waste that you have to deal with on the back end.
    Mr. Inglis. Dr. Ferguson.
    Dr. Ferguson. I have been to Japan. I was there a couple of 
years ago, visited Monju, their fast reactor site. They had an 
accident on the secondary, sort of the non-nuclear side of 
their fast reactor. They used liquid sodium for the coolant, 
and the property of sodium--remember your high school chemistry 
class where you take some sodium and you strip it and you put 
it in some water and what happens? It goes like crazy. It 
catches on fire. So they had a sodium fire at that facility and 
the Japanese are being very cautious in bringing that facility 
back up again. They have had some public opposition about that 
fast reactor. They are trying to educate the public about 
trying to re-operate that reactor, so that is Japan's 
experience. I mentioned France's experience earlier to Mr. 
Hall. But it is a mixed record. I think, you know, Dr. Peters 
is making a good point here. We need to take a fresh look at 
fast reactor technology, and Ms. Price also makes a good point. 
It can offer some significant benefits if it is economically 
effective, if we can handle some of the safety problems we have 
had in the past with some of these reactors.
    Mr. Inglis. Thank you, Mr. Chairman.

                                Closing

    Chairman Gordon. Thank you, Mr. Inglis. And once again, let 
me thank the panel for a very thought-provoking discussion and 
helping to raise our understanding of these issues. We want to 
continue this dialogue. We thank you for that. The record will 
remain open for two weeks for additional statements from 
Members and for answers to any follow-up questions the 
Committee may ask of the witnesses.
    The witnesses are excused.
    [Whereupon, at 11:58 a.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


                   Additional Material for the Record



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
